<html>
<title> - HEARING ON FEMA'S PREPAREDNESS AND RESPONSE TO ALL HAZARDS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S PREPAREDNESS AND RESPONSE TO 
                              ALL HAZARDS

=======================================================================

                                (110-35)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





                  U.S. GOVERNMENT PRINTING OFFICE
35-917                    WASHINGTON : 2007
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001








             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)




 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)







                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi
Chart of Presidential disaster declarations and chart of disaster 
  occurences by type, provided by Subcommittee...................   xii

                               TESTIMONY

Canterbury, Chuck, President, Fraternal Order of Police..........    49
Carr, Chief Tom, Montgomery County, Maryland, Fire Rescue 
  Service, International Association of Fire Chiefs..............    49
Endrikat, Chief Fred, Special Operations Chief, City of 
  Philadelphia Fire Department, Special Operations Command.......    49
Fugate, William ``Craig,'' Director, Florida Division Of 
  Emergency Management, Member, National Emergency Management 
  Association....................................................    25
Johnson, Vice Admiral Harvey, Deputy Administrator, Federal 
  Emergency Management Agency....................................     8
Selves, Michael D., CEM, President, International Association of 
  Emergency Managers.............................................    25
Sexton, Sr., Sheriff Edmund M. ``Ted,'' Former President, 
  National Sheriffs' Association.................................    49
Witt, James Lee, CEO Of James Lee Witt Associates, a part of 
  GlobalOptions Group............................................    25

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    63
Arcuri, Hon. Michael A., of New York.............................    00

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Canterbury, Chuck................................................    65
Carr, Chief Tom..................................................    69
Endrikat, Fred...................................................    76
Fugate, William ``Craig''........................................    79
Johnson, Harvey..................................................    87
Selves, Michael D................................................   104
Sexton Sr., Sheriff Edmund M. ``Ted''............................   114
Witt, James Lee..................................................   117



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
       HEARING ON FEMA'S PREPAREDNESS AND RESPONSE TO ALL HAZARDS

                              ----------                              


                        Thursday, April 26, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings, and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. I am pleased to welcome everyone to this very 
important hearing on new legislation that gives FEMA new 
authorities, new independence to see how the agency intends to 
move forward.
    Let me ask for unanimous consent, pursuant to Rule 3(d) of 
the rules of our Committee, that the gentleman from Louisiana, 
Mr. Baker, a Member of the Full Committee, be allowed to 
participate in today's Subcommittee hearing should he be able 
to appear.
    Without objection, so ordered.
    Today's hearing will address the Post-Katrina Emergency 
Management Reform Act of 2007, which has just become effective. 
The Subcommittee called this early hearing when the slate is 
clean and FEMA has the opportunity to start anew, to allow the 
agency to indicate its way forward in its own words under the 
Post-Katrina Act and to permit first responder experts to 
explain their understanding.
    The Post-Katrina Act specifically clarifies this term ``all 
hazards.'' It is a term that needed clarification when FEMA 
became a part of the Department of Homeland Security. It 
clarifies the all hazards strategy by mandating preparedness 
strategies that acknowledge the necessity of building common 
response capabilities to meet specific disasters, whatever 
their origin.
    The Subcommittee is eager to assist FEMA in carrying out 
the Post-Katrina Act for an integrated FEMA where preparedness, 
response, and recovery present a seamless continuum and natural 
and non-terrorist events take the appropriately prominent place 
within FEMA and the Department of Homeland Security. There is 
no need to rehash the details of how the Department responded 
to four major Florida hurricanes during the 2004 season, which 
were precursors of the larger problems that emerged from 
Hurricanes Katrina and Rita in 2005.
    The agency's reaction to Katrina exposed the weakness of 
segregating preparedness from the necessary functions of 
response and recovery. Congress responded with the Post-Katrina 
Act that requires more autonomy for FEMA. The point of the 
hearing today is to give FEMA and the expert witnesses the 
opportunity to seize the initiative in describing how they 
believe the new mandate to prepare for all hazards should 
operate, and any differences they perceive between operations 
in the past and what they expect under the Post-Katrina Act.
    Hurricane Katrina taught us that notwithstanding the unique 
9/11 tragedy and preparedness in an era of global terrorism, 
our citizens face other serious risks every day, almost none of 
them terror related. The emergency responders who receive FEMA 
grants are expected to use these funds even for the unexpected, 
whether from the effects of power outages like the total New 
York blackout of 1977--I was there then--the blackouts of 2003 
that traveled throughout the Midwest to the Northeast; hazmat 
rail accidents in South Carolina and elsewhere; or Tractor Man, 
who dangerously tied up downtown Washington in 2003.
    Of course, responders must also prepare for serious 
seasonal acts of nature, as well as highly unusual natural 
events, most recently, for example, a tornado in hurricane-
prone Florida. At the same time, FEMA and emergency responders 
must plan for natural disasters we hope never come, such as 
Governor Schwarzenegger's warnings about the California levees 
deteriorating or earthquakes along the San Andreas Fault.
    The endless list of possible events suggest the seriously 
unpredictable nature of what is expected of the agency. How 
will the new FEMA and our responders reconcile planning for an 
act of nature in hazard-prone parts of the Country, such as 
California, Florida, and the Great Plains, with preparing for 
random acts of terror that could in targeted and un-targeted 
cities?
    When FEMA was created as an independent agency, it seemed 
no more likely that a section of the District of Columbia would 
be declared a disaster area as occurred because of flooding 
following Hurricane Isabel, then that the Pentagon would be 
attacked. Yet, even today a natural disaster is a more likely 
event here, even though the Nation's capital is in the first 
tier for a terrorist attack and the last for flooding.
    Because the Post-Katrina Act is new, the Subcommittee, of 
course, can have no criticism concerning its implementation, 
but today the Subcommittee seeks the agency's vision and plans 
for assuring Congress that the lessons of Katrina have been 
absorbed and all hazards will receive the requisite attention.
    The agency Administrator is responsible for developing 
FEMA's approach for carrying out the Act's new mandate. 
Ironically, however, the Administrator chose to go to a meeting 
with others from the Department of Homeland Security at the 
Israeli Embassy. Only after I called the agency director was 
the Subcommittee assured of testimony from Vice Admiral Harvey 
Johnson, the agency's deputy administrator, leaving the 
unfortunate impression that the post-Katrina emphasis can 
always be trumped, even by a meeting with foreigners on an 
issue probably related to terrorism or its possibilities.
    I hope the testimony from the agency today shows otherwise, 
especially considering that we have sought here to do oversight 
on the new Act by allowing the head of the agency to lay out 
his own vision and views in the first instance, rather than 
only rely after the fact on oversight criticism.
    We are very pleased to welcome Vice Admiral Johnson and 
thank him for agreeing to testify. We especially welcome our 
expert witnesses from the emergency response sectors that must 
work with FEMA to assure success.
    I see that the Ranking Member of the Full Committee, Mr. 
Mica, is here. I referenced the Florida hurricanes. I would 
like to ask Mr. Mica if he has any statement to make at this 
point.
    Mr. Mica. Thank you. I see Mrs. Capito is acting as our 
Ranking Member this morning, but I did have a couple of 
comments.
    First of all, I want to thank you, Ms. Norton, for putting 
this important hearing together and working with both sides of 
the aisle to make certain that the Post-Katrina Emergency 
Management Reform Act of 2006 and the various revisions we have 
made to try to make certain that we are prepared, that we have 
the best emergency management system in place possible. So I 
want to commend you on holding the hearing.
    Unfortunately, I am now serving on six of the Subcommittees 
as the Ranking Member. I won't be able to stay; I have got 
other commitments. But I did want to take a minute and also 
welcome the witnesses. I see Mr. Johnson who is with us. I want 
to also welcome Craig Fugate, who is the Director of Florida's 
Division of Emergency Management.
    As you have pointed out, Florida has, unfortunately, 
experienced a number of disasters. But Florida is also widely 
recognized as having one of the best systems in place to deal 
with disasters and hazards systems in the Nation. 
Unfortunately, also, from some practical experience, my 
district has seen three major hurricanes and two tornadoes in 
the past two years, and we provide a lot of practical 
experience for FEMA, and I think it is very important to me and 
also the people of Florida that we ensure that the Post-Katrina 
Emergency Management Reform Act is implemented properly.
    Before Katrina, our State emergency managers had warned us 
that removing preparedness from FEMA would cause the Federal 
Government's disaster response capabilities to in fact decline. 
We had a failed response to Hurricane Katrina in part because 
DHS removed preparedness programs from FEMA. In the Reform Act, 
we put preparedness back in FEMA, and I think that is an 
important step.
    After Katrina, many States were concerned that the Federal 
Government would attempt to take over the response to every 
significant disaster, whether necessary or not. Some States are 
more prepared than others. For example, my own home State of 
Florida has, as I said, a first-rate all hazards preparedness 
system. We have had very excellent response from State and 
local level, with good Federal cooperation in the past.
    In Florida, we have also learned how important it is to 
have an adequate alert and warning system. During the recent 
tornadoes in my district, warning people was a problem. 
Unfortunately, that didn't happen, and that is something that 
we need to look at.
    FEMA's alert and warning system uses 1960s technology. We 
need to look at integrating and modernizing the system and 
using the very latest modern technology that is available so 
that we can warn people at the right time to save lives, 
whether it is in a tornado or maybe, as we saw a week ago on 
the Virginia Tech campus. We can and we must do better in being 
able to warn people.
    I know FEMA has a couple of pilot programs to test new 
technology. I think that is great, but I think we even need 
more. I look forward to working with you to develop a 
comprehensive modern warning program.
    State emergency managers have also told me the speed of the 
declaration process is problematic, particularly for individual 
assistance. We have seen some problems there. Unfortunately, 
the criteria are subjective and, as a result, States often ask 
for a declaration when they shouldn't, and fail to request one 
sometimes when they should. Craig Fugate, our Florida emergency 
manager, and I have had discussions about this. I also had an 
opportunity to meet with other State managers of emergency 
operations, and I think we all agree that this continues to be 
a problem. I hope we can work on finding a solution there.
    Also, finally, I want to mention that I have developed 
draft legislation that helps FEMA provide States with excess 
resources and, in some cases, trailers, mobile homes to house 
disaster victims outside of a Federally-declared disaster. We 
have seen the difficulty in sometimes getting these idle assets 
to where they should be and, again, difficulty in some of these 
declarations.
    I look forward to working with Chairwoman Norton and other 
Members interested in resolving these problems. This Committee 
has had a long history of supporting FEMA. I think we care 
about these issues, and we look forward to working with you on 
a regular basis.
    Thank you for deferring to me. I wish I had less experience 
in this field, but, unfortunately, Florida has been victimized 
by natural disasters and we have a lot of experience in this 
area.
    I yield back.
    Ms. Norton. Thank you very much, Mr. Mica.
    I would like to Mr. Arcuri if he has a statement to make at 
this time. The gentleman from New York.
    Mr. Arcuri. Thank you, Madam Chairman. I would like to 
thank the witnesses for being here today. We appreciate it very 
much.
    Many lessons have been learned in the aftermath of the 
Katrina disaster. Most troubling of all is that FEMA's 
preparedness functions and assets have been redirected to a 
newly created preparedness directorate within the Department of 
Homeland Security in order to also undertake response to 
terrorism. We now have learned that eroding FEMA's core 
responsibilities of disaster preparedness made it more 
difficult for FEMA to execute a responsible and effective 
response to the Katrina catastrophe.
    Straining the agency to balance responsibilities, 
terrorism, and disaster response without balanced funding is 
not a responsible way to ensure that a community or government 
will have an adequate response system prepared to handle any 
disaster, be it earthquake, flood, or terrorist attack.
    Some may think that local emergency management is as simple 
as sending firefighters to put out a fire or clearing snow off 
roadways after a large snowstorm. However, effective responses 
to these types of disasters require local communities to 
develop a comprehensive approach to ensure the proper 
equipment, infrastructure, and first responders are in place 
before the disaster even occurs.
    FEMA is tasked with helping communities prepare their State 
and local emergency management officials with capabilities to 
adequately respond to a disaster. FEMA's ability to execute 
this core responsibility was severely handicapped as a result 
of its reorganization within DHS.
    The threat of terrorist attack in my upstate New York 
district is far less commonplace than the threat of heavy 
rains, flooding, or severe snowstorms. Therefore, it is 
necessary to make certain that areas of the Country, including 
the district I am privileged to represent, are not left without 
sufficient emergency management resources to respond to the 
more probable disasters that plague them more frequently.
    The City of Oneonta, which I represent, was devastated last 
year by heavy rains and severe flooding, and is still in the 
process of fully recovering. FEMA's response and recovery 
efforts in Oneonta have been less than exemplary, and I hope, 
as the agency is reconstructed, future emergency responses are 
adequate and timely. For example, there was $560,000 that has 
been approved for damage, and yet only $134,000 has to date 
been paid out to residents of that area. So something has to be 
done about that to speed up the response of FEMA.
    I look forward to hearing on the progress being made at DHS 
to ensure that FEMA resumes a balanced all hazards approach to 
emergency management.
    Thank you, and I yield back the balance of my time.
    Ms. Norton. Thank you very much, Mr. Arcuri.
    I want to welcome Mrs. Capito and thank her for sitting in 
for the Ranking Member, Mr. Graves, and ask the gentlelady from 
West Virginia if she has a statement.
    Mrs. Capito. Thank you, Madam Chair. I would like to thank 
you for holding this hearing. Before I begin, I want to mention 
that Ranking Member Graves is at a classified briefing 
regarding a constituent of his that was recently kidnaped in 
Iraq. As you can imagine, he is doing whatever he can to assist 
the family, and he will be here as soon as he can.
    Thank you again for holding this hearing on FEMA's 
preparedness in response to all hazards. Returning the 
preparedness function to FEMA and establishing the national 
preparedness system were central components of the Post-Katrina 
Emergency Management Reform Act. After Hurricane Katrina, the 
House conducted an exhaustive review of what went wrong with 
the Government's response to that terrible storm. One of the 
key findings of the investigation was that the Federal 
Government's preparedness efforts were disconnected from its 
response operations and this contributed to an ineffective 
disaster response.
    After FEMA was transferred to the Department of Homeland 
Security, its preparedness functions were removed. At the time, 
emergency management professionals warned that the four 
cornerstones of comprehensive emergency management--
preparedness, response, recovery, and mitigation--must be 
closely joined and jointly managed. As a result, recombining 
preparedness with the other three elements of comprehensive 
emergency management was one of the central reforms of our 
bill.
    We also established an all hazards national preparedness 
system. The national preparedness system is intended to be a 
partnership between all levels of government. That is why we 
created the National Advisory Council with representatives from 
the National, State, and local levels. We intend the Council to 
participate in the development of every major component of the 
system. Similarly, we created regional advisory councils to 
improve preparedness at the local level. We also elevated the 
role of the fire administrator and created a special law 
enforcement advisor to the fire administrator. Law enforcement 
plays a critical role in disasters, and FEMA needs to ensure 
their requirements are fully addressed.
    Another important lessons of Katrina was DHS cannot afford 
to ignore natural disasters and other emergencies in its effort 
to address the terrorism threat. We must do both.
    This Committee supports separate grant programs for 
improving different aspects of the all hazards system. It is 
entirely appropriate to have terrorism preparedness grants 
where money is allocated based on the risk of terrorism as long 
as they all enhance the all hazards system. Similarly, we have 
fire grants and emergency management performance grants 
directed to the first responder and emergency management 
disciplines as long as they are consistent with the all hazards 
system.
    Another lesson of Hurricane Katrina is that we need to 
reform the Federal chain of command. The Stafford Act, which 
governs Federal emergency management, provides the President 
with the authority to direct all Federal agencies during a 
disaster. Ultimately, the President is the only one who can 
direct the Secretary of Defense and the assets of the entire 
Federal Government.
    To execute his responsibilities effectively, the President 
needs the advice of a disaster professional. As a result, our 
reform bill gave the FEMA Administrator the authority to manage 
disasters on behalf of the President, and we expect the 
national response plan to reflect these changes.
    Our Committee has a long history with FEMA, and I want you 
to know that we want you to succeed, and we are here to help 
you.
    Again, I would like to thank our witnesses for being here, 
and I look forward to your expert testimony.
    I yield back. Thank you, Madam Chair.
    Ms. Norton. Thank you very much, Madam Ranking Member for 
the day.
    I want to ask Mr. Walz of Minnesota if he has any 
statement.
    Mr. Baker, I have indicated and gotten unanimous consent 
for you to sit in, if you want to say a few words. You are 
welcome at this time.
    Mr. Baker. Madam Chair, I appreciate the courtesy extended. 
I will be brief. I am here out of a sincere sense of motivation 
on this topic.
    I think that there has been a great deal of discussion 
about the general environment in which the Government responded 
to this inordinate disaster, but I want to frame the scope of 
the response in a slightly different way. All too often, people 
hear Katrina and think $100 billion. The actual allocated funds 
made available for Katrina response for all purposes was 
slightly in excess of $32 billion.
    Now, my comment at this point is certainly not directed to 
our distinguished witness, but to the system. I wish to make 
that clear. But when people think of $32 billion, which, by the 
way, is a lot of money, but it is not $100 billion, 22 percent 
of that went to FEMA for its own administrative operations, 
$7.2 billion. Now, there are very few operations in business 
that take a 22 percent cut off the top, but let's keep that in 
perspective. $7.2 billion from $32 billion gets us down to $25 
billion.
    Okay, let's assume for the moment we are going to side step 
the administrative issues, what did we do for $7 billion worth 
of administration. It left a net of $25 billion to be allocated 
to the subject target area. Just in one category alone, $2.1 
billion was spent on the acquisition of trailers. As of this 
moment, there are 60,000 trailers in storage in FEMA's 
possession around the Country, many of which were never 
deployed to the intended user.
    Of those which were deployed, you have to take into account 
not the cost of acquisition, but the cost of siting the 
trailer; that is, physically getting it on the ground, 
delivery; that is hooking it up to things which make it work, 
like utilities; and that is handing over the key to the person 
who will occupy it, notwithstanding the fact there were 118,000 
trailers keyed with the same lock. That created some 
interesting issues for people who wished to venue shop, looking 
for a TV.
    Let's set that aside. The cost to put those trailers on 
that pad averaged slightly in excess of $70,000, troubling for 
the taxpayer, because those were temporary locations where we 
could have built modular housing on a slab for about $60,000 a 
site. The site as my source Fannie Mae/Freddie Mac.
    There is not a way on earth that we could take $32 billion 
and as poorly respond to the environment in which we responded 
without having it been by a plan. You couldn't do it this badly 
by accident. There had to be somebody thinking this out.
    At the end of the day, I hope the Committee will look very 
carefully at the rules-based nature of emergency response. By 
that I mean there are a set of standards which the Congress and 
bureaucracy has put into place in contemplation of a small 
geographic fixed, previously studied type of disaster. This one 
was beyond all the books. Notwithstanding, the rules had to be 
applied.
    For example, we had a law enforcement entity that responded 
to the disaster by deploying its assets to help people in 
search and rescue and in restoring civil order. Now, the way in 
which that law enforcement entity would normally get reimbursed 
is to get an invoice from the benefitted entity, meaning the 
City of Orleans, as one example.
    Well, there is a problem. That entity doesn't have a 
mailbox; it doesn't have an office; it doesn't have employees. 
There is nobody there with which you can create the invoice. So 
the guy who went out of his way to do the right thing for the 
right reason, who is looking to FEMA to get reimbursed for 
legitimate law enforcement response activities can't get 
reimbursed because there is nobody to give him an invoice.
    Now, that is an illogical conclusion to someone who acts in 
good faith, motivated for the right reasons.
    Madam Chair, there is a long litany of things I could bore 
this Committee with, but I want to say I appreciate your 
courtesy in extending this brief opportunity for me to speak. 
And on any occasion that I can work with the Members of this 
Committee to bring about some rational thought in disposing of 
these types of illogical rules, I would be most happy and 
appreciative.
    I yield back.
    Ms. Norton. Well, the gentleman speaks from great 
experience, experience we hope never to be repeated in anyone 
else's State.
    The Subcommittee is very concerned that some quick FEMA 
fixes, particularly that would serve the Gulf Region, happened. 
We, of course, have just done perhaps the most important fix of 
all, and that is the 10 percent waiver. But we certainly have, 
and we would be most interested in the agency's view. You will 
have an opportunity to give those views on May 11th, when we 
have a hearing on fixes that, in a real sense, are low hanging 
fruit, but they are the kinds of circumstances that you have 
just described that drive people crazy. So point well taken.
    I am pleased now to have the testimony of the deputy, Rear 
Admiral Johnson.

TESTIMONY OF VICE ADMIRAL HARVEY JOHNSON, DEPUTY ADMINISTRATOR, 
              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Admiral Johnson. Chairwoman Norton, Members of the 
Committee, thank you for inviting me here today to discuss 
FEMA's all hazards preparedness planning efforts and how that 
capability will contribute in significant measure to 
accomplishing Administrator Paulison's vision for a new FEMA.
    In May of 2006, as FEMA was being pilloried in the wake of 
Hurricane Katrina, the President nominated and the Senate 
confirmed David Paulison as the Director of FEMA. One of his 
first demonstrations of leadership was to establish a vision 
for a new FEMA, that we should aspire to become the Nation's 
preeminent emergency management and preparedness agency. This 
vision pointed us in the direction of all hazards response, 
recovery and mitigation, and it emphasized for the first time 
in FEMA taxonomy the development of core competencies, among 
them, all hazards operational planning. He challenged the 
agency to develop and sharpen those competencies so that they 
would distinguish professionalism and build a sense of purpose 
within FEMA to better meet the expectations of our agency, of 
Congress, and the American people.
    In October of 2006, Congress passed the Post-Katrina 
Emergency Reform Act, and in that legislation you expanded our 
mission set to include protection and preparedness, and you 
emphasized again your intent that our perspectives encompass 
all hazards threats. Administrator Paulison added another core 
competency to his vision, that of integrated preparedness, 
which sent the strong signal inside FEMA and to our now 
broadened constituency that we would indeed reach beyond 
natural hazards to advance preparedness and protection with 
those now having influence as we respond, recover, and mitigate 
against manmade disasters and acts of terrorism.
    A mentor of mine had a favorite expression. He said that a 
vision without action is nothing more than a dream. 
Administrator Paulison's vision for a new FEMA is all about 
action. We have set a course to demonstrate our determination 
to embrace an all hazards approach to emergency management and 
preparedness.
    Mile markers on this course include the following: building 
robust regions, which means more people, more authority for the 
regional administrator, and higher expectations for mission 
performance; reaching out to embrace State homeland security 
administrators with the same attentiveness that we do to State 
emergency managers; establish a new law enforcement liaison to 
the Administrator, a direct report who will represent law 
enforcement interest and bring that perspective to all of our 
headquarters policy and program development; opening our once 
region response coordination centers from lights out waiting 
for a declaration to 7 by 24 reaching out to State fusion 
centers and other agency operation centers to maintain constant 
situational awareness; establishing FEMA's first cadre of 
operational planners in headquarters and in the regions; 
establishing Federal preparedness coordinators at the regions 
to work more deliberately with Federal and State partners at 
the field level; and establish preparedness relationships with 
counterparts in major urban areas, in addition to our 
traditional relationships with States.
    These actions are all in play and are all about 
reconnecting and fortifying relationships with emergency 
managers and establishing new relationships with the law 
enforcement community at the Federal and State level to 
actualize our vision of becoming the Nation's preeminent 
emergency management and preparedness agency. As testament to 
this new approach, you and our Federal and State partners will 
see a FEMA more engaged in operational planning.
    That means we will sit down across the table to consider 
and advance the potential disasters and better plan for an 
integrated response and recovery. Joint terrorism task forces 
around the Nation will see for the first time FEMA preparedness 
coordinators and operational planners as teammates, we will be 
come informed of the current threats and be better able to 
initiate and support a timely response tailored to the nature 
of the threat, and they at the JTTF will be better informed as 
to how Federal and State response agencies will react and 
effect response to any manmade or terrorist event.
    Make no doubt about it, this is a new direction for FEMA. 
It reflects a broader mission challenge, it reflects a wider 
set of partners, and it reflects a greater depth of mission 
perspective. The new FEMA will require new skill sets, a 
greater investment in our people, and new tools to ensure the 
outcomes of safer communities and more effective response, 
recovery, and mitigation.
    Success will depend upon two primary factors: one where you 
have influence and one where I have influence. On your part, I 
ask that you act on your desires for a stronger, more capable 
FEMA by supporting the President's request for our 2008 budget. 
That budget asks for new operational planners, it asks for 
Federal preparedness coordinators, it asks for additional watch 
standards, it asks for full-time incident management teams and 
more effective information management systems.
    For my part, I take on the challenge to motivate a 
workforce, to bring about a culture change, and to institute 
operational doctrine and improve business processes that will 
affirm your investment in FEMA.
    To the extent that each of us is successful in our 
challenges, the American people will benefit, as they too want 
a stronger and more responsive FEMA equally capable of helping 
to prevent disasters across the all hazards spectrum, prepare 
communities to be more resilient in the event a disaster 
occurs, and to be present more quickly and to offer assistance 
more compassionately when that assistance is required.
    I thank you for the opportunity to be here today, and I 
would be pleased to respond to any of your questions.
    Ms. Norton. Thank you very much, Admiral Johnson.
    In trying to understand all hazards, would you agree that 
if the agency and responders are prepared for a natural 
disaster, they are almost surely prepared for a terrorist 
attack and disaster? But if they are prepared only for a 
terrorist attack and disaster, they may not be prepared for a 
natural disaster?
    Admiral Johnson. Madam Chairwoman, I would not agree with 
that proposition. In our view, there are a number of manmade or 
terrorist evens that have characteristics that go far beyond 
the challenges of a natural disaster. For example, any 
chemical, biological, or nuclear attack. In those situations, 
rather than run to the event----
    Ms. Norton. Let's stop right there. Because terrorist 
disasters are quite specialized, we don't know whether to 
expect something to blow up; we don't know whether to expect a 
chemical disaster; we don't know whether someone will be 
bringing in a nuclear device. Those require people to be very--
in fact, they require specialists. The police department in a 
city, for example, has people who you send out on those things 
that are specially trained.
    I am trying to understand the relationship between these 
two as the agency understands the relationship between these 
two, the specialized nature of preparing for and responding 
sometimes to terrorist attacks and the more predictable natural 
disasters where responders often have, across the board, 
training. And you have just started with what it seems to me 
are differences of the kind that, in my other capacity as a 
Member of the Homeland Security Committee, we have had many 
hearings concerning.
    So we understand all hazards in the sense that you have got 
to be prepared for either. The question I am putting to you has 
to do with the difference between the two and whether they are 
entirely interchangeable or how you think that operates.
    Admiral Johnson. Madam Chairwoman, I agree with your 
premise that natural disasters occur far more frequently than 
does a manmade disaster or a terrorist event. So I agree with 
that premise. As a baseline, we must be better prepared to 
respond to natural disasters. What I would offer to you is that 
some of the nature of a non-natural disaster, if those first 
responders are more prepared, informed about the challenges of 
a terrorist event, then they will respond more effectively 
across the board. But I think it does take some training and 
education, preparedness, and perhaps equipment to be able to 
respond across that full spectrum.
    We probably aren't very far apart in our views, but I do 
think that preparing for natural disasters alone would not be 
sufficient.
    Ms. Norton. I just want to say, Rear Admiral Johnson, just 
to give you an example, sitting here in target city number one, 
I have had to say time and again to my own constituents stay 
where you are if you hear that there is an event. You want the 
honest to goodness truth? If and when there is a disaster here, 
I expect it to be far more contained. I expect that if people 
ran out into the streets from this building or from their 
homes, they may run into the chemical that could explode, that 
could come from a hazmat train wreck. I expect that if somebody 
is carrying a nuclear device, that they had really better stay 
put, because the whole notion of what effect it will have would 
be something that people would have to look at and take some 
time to look at.
    The reason I raise these points is because people have 
learned how to respond to disasters essentially by evacuating 
and by, indeed, assuming that a disaster is the same thing and 
means the same thing for all of us. I want you to take a look 
at the copy of the map that was up here and I hope will 
reappear.
    Where is the map? Would audio-visual please put the map up 
again? I don't want it to disappear; I wanted to speak about 
it. Thank you.
    The map is too busy, and I am not inviting people to look 
at all those boxes. In fact, I don't even like the map. I like 
maps that say things, come right out and say. But the map is 
intended and divides the Country into its various regions. If 
you will look even from afar at that map, you may be surprised 
to see that there is no part of the Country that escapes 
natural disasters. The only part of the Country that has had a 
terrorist event are, of course, the Pentagon, this region, and 
New York City.
    It is very easy--and I sit on both Committees, so I try to 
keep my balance. I have to keep my balance since it is perhaps 
easier for me to see the whole world in terrorist terms. One of 
the criticisms of the agency, when it was incorporated into 
Homeland Security and Katrina came, was that terrorism had in 
fact become the vision of the agency and that it was not 
prepared for the old-fashioned natural attack, which is I would 
say 99 percent, except that that doesn't say it enough, it must 
be 99 point something percent.
    Somehow or the other, the Post-Katrina Act is meant to get 
us back into balance and show us that every single American 
somewhere can expect a natural event of some sort. I haven't 
even covered the acts that are not of nature, that I mentioned 
in my statement, like the blackouts. I don't know how many 
remember when there was a plane that hit the 14th Street Bridge 
here, a huge and terrible, unpredictable disaster.
    Emergency responders, the people with whom you relate, have 
to be far more alert in the ordinary course of business to the 
unpredictable events of that kind and to the natural disasters, 
some of which are expected and some of which are not. Yet, over 
90 percent of homeland security grants are focused on 
terrorism, while 10 percent go to all hazards management.
    I am a Member of the Homeland Security Committee. I am not 
here criticizing that division, because that division has in 
part to do with how I responded to your original notion about 
chemical spills, nuclear possibilities, the kinds of things for 
which obviously emergency responders had no reason to be 
prepared. So there has been a huge, huge amount of money going 
to cities, so much so that the Homeland Security Committee has 
had hearings showing that so much money was thrown at them for 
terrorism that they had to find other uses for it, and I will 
tell you they did find some uses for it, and some of it, I 
hope, spilled over into what is needed for natural events.
    But the second chart, the large red part shows the 90/10 
percent distinction. I am not suggesting that our Country spend 
less on homeland security grants at this time, but the 
Committee is concerned that the Administration and, for that 
matter, others appear to still want to turn the relatively 
small 10 percent of the EMG emergency grant program from an all 
hazards program to a terrorist program, despite what we have 
learned from Katrina. That is of great concern in the post-
Katrina period.
    What would be your response, sir, to that?
    Admiral Johnson. Well, Madam Chairwoman, FEMA certainly 
agrees with you of the value of the emergency management 
performance grant program, and we agree that FEMA will 
administer the grant programs as they are designed and funded 
by Congress, which, of course, provides an array of grants for 
various purposes. We believe that in those grants that there is 
benefits, as you mentioned, spillover benefits from one grant 
and a port security grant that benefits emergency management. 
So I believe that we think that the grants have a purpose. They 
meet their purpose. They have improved preparedness at large 
across the Nation, and that preparedness has brought value to 
natural disaster preparedness, as well as preparedness for a 
terrorist event.
    So if that addresses your concern.
    Ms. Norton. I am going to go to the Ranking Member in a 
moment, but the evidence for this from the Committee really 
comes from first responders. They complain that the application 
process is so tilted toward terrorism that it becomes difficult 
to use the grants for the 99.999, whatever it is, that they 
use. That is of great concern when you have got only 10 percent 
of the funds.
    I am asking that you look at that application process, Mr. 
Johnson. Give it a review and report within 10 days any self-
criticism you may have or any changes you might want to suggest 
with respect to that application.
    Could I ask the Ranking Member, Mrs. Capito? I will come 
back with some further questions, but I would like to pass on 
to other Members.
    Mrs. Capito. Thank you, Madam Chair.
    In preparing for the all hazards, the first thing, I 
understand, is a risk assessment of, I guess, all kinds of 
risks in a certain community. Are those risk assessments done 
community-wise, regionally, nationally? How are those done and 
how often are they reassessed?
    Admiral Johnson. We have a preparedness goal for the 
Nation, and out of that goal came 15 likely scenarios of events 
that could occur, and the intent is to use those scenarios and 
prepare assessments against those scenarios which leads to a 
consistent approach across the Nation. Those assessments are 
primarily done at the State and local level, which guidance 
provided by the Department of Homeland Security. Certainly, 
each State has a choice into how they approach those. Some 
scenarios may be more likely in one State than another, but 
then we use the grant funds to help and assist in those 
assessments, identify what gaps exist and how best to mitigate 
those gaps.
    Mrs. Capito. And how often are they reassessed, or is that 
dependent on what the State decides?
    Admiral Johnson. I think it is done perhaps unevenly across 
the Country, dependent on the progress of a State in a 
particular area.
    Mrs. Capito. Well, I like the emphasis on the State and 
local. I mean, I am from a community, West Virginia, who has--
we are filling in your flood area here and, by the way, FEMA 
has been very good with our flash flood response. But we also 
have a lot of chemical plants, and we had one of the plants 
that leaked right after the Bhopal incident, you probably 
remember, in the 1980s. Our local community, I am sure in 
conjunction with FEMA, got together and has a very good local 
emergency response plan, and we all know, when we heard that 
siren go off, what that could possibly mean, and your response 
could be so much quicker if your coordination and assessment is 
in the community. So I like that.
    I have two other quick questions. I know in the bill that 
was passed last year there were certain milestones that were 
asked for. That would be a Federal Coordinating Officer, 
national response plans, development of incident--you know what 
the milestones are. I think it would be very helpful if you 
could line out all of the different most specific requirements 
in that Act and give the Members of this Committee a time line 
on where you are in completing that so that we could then 
follow along and see the progress that has been made and maybe 
gig you a little more where we think more progress needs to be 
made.
    Admiral Johnson. We would be very pleased to do that. In 
fact, we have looked at--there were about 139 different 
specific requirements to FEMA in that legislation. Many due 
dates are passed without us responding yet. We are prepared to 
meet with your Committee and to review all of the tasks in the 
post-Katrina reform legislation and advise you where we are in 
the progress toward those and when we expect to deliver results 
for you. We would be very pleased to do that.
    Mrs. Capito. I think that would be very helpful.
    The last question I have is certainly in the Katrina 
disaster, my understanding is the lack of a primary decision 
maker, somebody who could make a decision quickly or was 
willing to make a decision or made a decision was one of the 
things that came to light that was sorely lacking. In the 
legislation there is a Federal Coordinating Officer, but I 
understand there has also been created a Principal Federal 
Official. Who is going to be making the decision here, one 
person, two people? How is this going to work? Certainly, in 
terms of not only cost, but saving lives and being able to 
respond, I think that has got to be a critical element here.
    Admiral Johnson. Yes, ma'am. You are very astute in that 
observation. We are currently in the latter stages of the 
rewrite of the national response plan. One of the key elements 
in that rewrite is to bring distinction between the role of the 
Principal Federal Official and FEMA's Federal Coordinating 
Officer. In our view, the FCO is the primary Federal official 
who engages with State officials in all emergency management 
issues at a joint field office. It is our view that the FCO is 
the primary Federal official in that joint field office and is 
the primary official to make those operational decisions.
    The role of the Principal Federal Official is, in sum, to 
make sure that all of the agencies that are there at the JFO 
play well and synchronize their efforts in support of the 
objectives that are jointly developed by the State and the FCO.
    Mrs. Capito. All right, I thank you and I look forward to 
the report with the milestones listed and time lines. And if 
you get a chance to talk a little bit, I am interested in your 
reserve workforce, but we will save that for another day.
    Admiral Johnson. Yes, ma'am. Thank you.
    Ms. Norton. The gentleman from New York, Mr. Arcuri.
    Mr. Arcuri. Thank you, Madam Chairman.
    Admiral, you talked about 15 likely scenarios that have 
been identified. Could you tell us how many of those are 
natural, of the 15, and how many of those are manmade?
    Admiral Johnson. There is one natural disaster scenario and 
the others are manmade, and they are, for example, pandemic. 
They are created to have us look at the range of events that 
could occur and to make sure that we understand we to be 
prepared in those scenarios or how each may be different and 
how those would apply.
    So based on your Committee premise that natural disasters 
is the common, that is only one scenario, but that will then 
support response to all the other scenarios.
    Mr. Arcuri. And of the money that you spend on 
preparedness, how much of that goes to the manmade and how much 
to preparing for natural disasters?
    Admiral Johnson. Well, I think your chart, in terms of 
grants and the direction of grants, your chart is accurate, 
that if you want to--for example, if you were to say emergency 
management performance grants is the sole grant for emergency 
preparedness for natural disasters, you could take that 
perspective and say that a small slice goes in that direction. 
But I believe that all of the grants in some form do provide 
common benefits that help us in natural disasters. So I think 
it is very hard to slice across that way, but I think the EMPG 
grant is certainly a primary that tells you perhaps not enough 
money is going to natural disasters.
    Mr. Arcuri. My concern is that you always think of FEMA, at 
least I always thought of FEMA, as the agency that helps us 
respond and prepare for natural disasters, and my concern is 
that the preparation for natural disasters is being slighted 
because of the priority that may be being placed on trying to 
determine different manmade scenarios. And I will bet if there 
are 14 that you have identified, there are probably 20 more 
that other people in the agency think probably should be in the 
top 15, and you probably spend a great deal of your time trying 
to identify what new manmade scenarios could develop and how to 
respond to them. My concern always is that because of that we 
are somehow slighting the natural disasters that we know are 
going to happen in many places, including in my district, where 
we have had some severe flooding over the past five years.
    Admiral Johnson. As a Member of this Committee, I think 
that your concern for any kind of a detriment to natural 
disasters is a good concern to have, and from your perspective 
you should provide to FEMA to make sure that does not occur.
    From inside FEMA, I feel that our competency to respond to 
natural disasters is significantly greater now than it was 
certainly at the time of Katrina, and I think we have 
demonstrated that in the disasters that have occurred as 
recently as the noreaster this past week, and we will 
demonstrate that preparedness in the upcoming hurricane season.
    But at the same time, if we do have a non-natural disaster, 
you will expect us to be prepared and to lead the response to 
that event. So I think that we do need to look at those events, 
those challenges that perhaps we haven't paid as much attention 
to, and to be equally prepared those, in those eventualities, 
to meet your expectations as we will in a natural disaster, but 
do that in a manner that does not detriment our ability to be 
prepared and respond to natural disasters.
    Mr. Arcuri. I want to ask you one more question, and it may 
be a soft ball, but I think it is important. Do you think, 
having changed the way FEMA views its role in terms of 
developing for manmade disasters, you are in a better position 
to assist people who have been victims of natural disasters?
    Admiral Johnson. Yes, sir, I think that is an excellent 
point to make, not necessarily a soft ball because is the point 
of your legislation. When you bring the pieces together--
preparedness, response, recovery, mitigation--there has got to 
be value in the synergy of bringing those pieces together, and 
we are seeing that just in the last month that we have been a 
new FEMA, that there is synergy. Looking at the grants in the 
non-EMPG grants, finding synergy in the purpose of those 
grants. So I think your observation is exactly correct, that 
that is going to lead to overall better preparedness as well as 
preparedness for natural disasters.
    Mr. Arcuri. And you don't think we will, in the long run, 
have slighted our ability to respond to natural disasters by 
giving FEMA a larger role and a larger task?
    Admiral Johnson. Just like, as you approach other 
responsibilities, if you give FEMA more responsibilities and 
you follow that authorization with appropriate resources to do 
those jobs, then you will get exactly what you are looking for. 
That is why I asked for your support in the President's 2008 
budget request. If we assume more responsibility and 
accountability, but aren't also resourced to meet those, then 
we are all going to have a tough day.
    Mr. Arcuri. Thank you, sir.
    Admiral Johnson. Yes, sir.
    Mr. Arcuri. Thank you, Madam Chair.
    Ms. Norton. Does Mr. Dent have any questions?
    Mr. Dent. Yes, thank you, Madam Chairman. I will be brief.
    Admiral Johnson, the FEMA reform bill requires that FEMA 
develop a strategy for rebuilding your permanent and your 
reserve workforces. When do you expect to complete those plans 
and can you tell the Committee what the proposed personnel 
levels are going to be, and are you considering a reserve model 
like the military reserves or the National Guard?
    Admiral Johnson. Yes, sir, and thank you for that question. 
When you ask us how we respond and meet your expectations, it 
relies in large part of our disaster assistance employees, 
which is our reserve force. They are the backbone of FEMA. They 
are, in large part, the people that you see at all disasters. 
And, yet, that system has become quite a bureaucracy. It 
doesn't provide FEMA consistently with the right number of 
people that we need to respond to disasters; it doesn't assure 
those people that FEMA has the resources to invest in them with 
professional development. So our current reserve workforce 
system has many, many challenges.
    We are currently undergoing a study that we hope to come 
back to you in the June-July time frame and describe to you 
what we think might be a more efficient and effective reserve 
program. Efficient and effective for FEMA, but also one that 
protects the interest, the development, the pay, the benefits 
of those employees themselves, and in our view that may 
require, in large sum, fewer resources and fewer numbers of 
people than we currently have today, and it will be modeled in 
large part, from lessons we have learned from military reserve 
forces.
    Mr. Dent. Thank you for that answer. I guess my final 
comment or question will be what progress has FEMA been making 
on forming the regional advisory councils and also those 
regional incident management teams.
    Admiral Johnson. We are probably within less than a couple 
weeks of solidifying the membership of the national advisory 
council, and our target is to have the first meeting of the 
national advisory council before the 1st of July. We are 
developing a process to establish our regional advisory 
councils based on how we approach the national advisory council 
so they become supportive. So I don't believe we will have 
those councils identified and resolved until the end of summer.
    Separately, on the incident management teams, which is 
referred to as a strike team in the legislation, those will be 
an excellent capability for FEMA and for the Nation. Right now, 
we have sort of pickup teams, we don't have full-time members, 
and that is what I think you expect us to provide.
    I had a brief just before I left the office this morning on 
the incident management team concept, and we hope to have those 
teams in place before the beginning of hurricane season this 
summer.
    Mr. Dent. Just a point of clarification on this 
presidential disaster declaration that you handed out, I live 
in Pennsylvania and we have probably more running water than 
any of the lower 48 States, so we are very susceptible to 
flooding. I was just trying to understand. You are showing on 
the map floods and severe storms. How many of those severe 
storms generally result in flooding? In my State, it seems most 
disaster declarations are flood-related or storm-related, and 
sometimes it is hard to tell the difference after the storms.
    Admiral Johnson. That is a great question. I think that we 
can probably provide you later with exactly what our 
definitions of each of these columns are. In the severe storm, 
our view of those is that is more like the tornado, where 
predominant damage in terms of both public assistance and 
individual assistance was not in the area of flood. But we can 
provide better statistics for you.
    Mr. Dent. I am just curious because it seems a lot of 
flooding would result after hurricanes or tropical storms. We 
have been having a lot more severe weather incidents where just 
a thunder shower turns into a major storm that results in 
significant damage and disaster declarations, and I am just 
trying to get a better sense of this.
    Admiral Johnson. For your region in particular, we will 
provide your staff with a greater breakdown of those incidents.
    Let me also just follow up on your question in terms of the 
incident management teams. I want to be clear that the 
legislation required three national teams and one regional 
team, one for each of the 10 regions. We won't have all 13 
teams this coming summer, but we will have a number of teams in 
order to assist in our hurricane preparedness efforts.
    Mr. Dent. Thank you, Madam Chairman. I yield back.
    Ms. Norton. Thank you very much, Mr. Dent.
    I just have a follow-up question on regional office strike 
teams. My sense of FEMA is that FEMA ought to be, itself, a 
strike team; it ought to be a mobile team strike team. It seems 
to me the regional office strike teams are the major way for 
the public to regain confidence in FEMA if they see people who 
are mobile. Strike teams are just the word for it. I think it 
was special forces. You see, I think FEMA ought to be like the 
special forces, with no holds barred; they are ready to do what 
has to be done. What is your progress again on establishing 
them in every region?
    Admiral Johnson. Madam Chairwoman, again, the legislation 
requires 13 teams and those teams to be full-time members, and 
that requires that we have the PFTs, the actual FTE and the 
funds to support those teams. The legislation authorized those 
teams but did not appropriate for those teams, so we----
    Ms. Norton. You have no appropriations for these teams?
    Admiral Johnson. That is correct.
    Ms. Norton. Did you ask? You mean to say this year's 
budget. How about the budget for next year that you have before 
us?
    Admiral Johnson. Yes, ma'am. In the fiscal year 2008 budget 
that is before you, there are resource requests in there to 
establish one of the national teams and one of the regional 
teams. Our intent is to reprogram internal resources this 
summer in order to establish some minimal capability.
    Ms. Norton. This summer to do what? I am sorry.
    Admiral Johnson. We will reprogram some of our internal 
resources to establish the first regional team, and we may very 
well----
    Ms. Norton. And where will that be, Admiral Johnson?
    Admiral Johnson. We will have the first regional team 
before the hurricane season.
    Ms. Norton. Located where?
    Admiral Johnson. That team will likely be in Region 4, 
which is in Atlanta. Now, we may very well approach Congress 
within the next coming weeks with a reprogramming request that 
may allow us to go further this fiscal year, but at this point 
there have been no direct appropriations for these teams.
    Ms. Norton. Well, the budget doesn't seem to have asked for 
appropriations for all of the regions. I can only think that if 
there is a disaster in some region and there isn't a strike 
team there, that is the first criticism that is going to be 
made of the agency, so I hear you on that and I think that the 
agency has to give the greatest priority to these teams, 
somebody on the ground the moment it occurs. For example, does 
there have to be a disaster declared before such a team is 
deployed?
    Admiral Johnson. Well, let me say again that what the 
legislation asks for, which I 100 percent agree with, is full-
time teams. Please understand that right now FEMA has emergency 
response teams, but they aren't full-time members; they have 
another job they are doing today. And when that emergency 
response team deploys----
    Ms. Norton. Would you explain that? They are employees of 
FEMA?
    Admiral Johnson. Yes, ma'am. I am trying to think of an 
example in your congressional world. I may be the director of 
response in Region 1, and that is my full-time job, but if I 
become a member of a response team, I am taken from my full-
time job; my seat becomes empty because I leave and respond to 
the event.
    Ms. Norton. Well, I would be more concerned about whether 
the people on the ground there now are trained to be the kind 
of mobile force that the Congress had in mind when it wanted 
these teams established.
    Admiral Johnson. Well, I think Congress had a perfect model 
in mind, and what you wanted us to do was to have a capacity to 
respond, but when we respond, not to detriment our capacity in 
our management in our regional offices.
    Ms. Norton. Are the people who would have to do this now 
trained to do whatever they have to do, the same thing that the 
regional office strike teams would do if they were there, just 
not enough of them, is that what you are saying?
    Admiral Johnson. Yes, ma'am. We have teams now that can 
respond, do respond, and, in fact, States welcome when an 
emergency response team from FEMA arrives at their emergency 
operation center. We just want to have full-time teams that can 
exercise with them, train with them, as well as respond to 
events, without having those people depart their full-time job.
    Ms. Norton. I think you are probably going to find some 
interchangeability in any case, rather than have people only be 
full-time waiting for an emergency. You probably, as a matter 
of efficiency, are going to have some interchangeability. My 
only concern is are people being trained now to be a strike 
team? That is really my question.
    Admiral Johnson. Yes, ma'am. We have emergency response 
teams now that did respond this last week to the noreasters, 
that did respond to tornadoes in Florida and Georgia and 
Alabama, that will respond to an event that occurs tomorrow.
    Ms. Norton. Actually, they may get there and you might not 
even need anybody else there. In fact, we have seen, Admiral 
Johnson, some evidence of better preparation and response in 
the tornadoes that came this year in Florida. You know, the 
Committee takes real note of that, just as it took note of the 
problems with the trailers. We had to have a hearing and, 
unfortunately, as you know--and that is why I want to be clear 
that we did take note of it. People have oversight hearings 
when something happens that they think needs attention. They 
don't have an oversight hearing when, in fact, you have the 
kind of response time and clear evidence of good response that 
you had in the tornadoes and in Florida.
    Here, I am trying to see how the new FEMA operates. Let me 
ask you if you would ask a member of the public to name five 
things that gave them less confidence in the agency, it was the 
confusion over the chain of command and, indeed, contradictory 
statements from within Homeland Security and FEMA about what 
happens and, indeed, what happened when Katrina broke, and who 
did what when and who should have done what when. Here is where 
people began to have real doubts about FEMA being in the 
Department of Homeland Security in the first place.
    Some of us were around when FEMA didn't have to ask 
anybody. FEMA didn't report to anybody but the President of the 
United States, and he said, what? Just go. I don't even want to 
hear it. So that is when you got this entire Committee, 100 
percent of the Committee, all of the Chairs and the Committee 
itself, sponsoring a bill to take FEMA out of the Department of 
Homeland Security. That was about, in no small measure, who is 
in charge and who thinks he is in charge when there is a 
disaster.
    You would help us by positing an event or an incident and 
walking us through the chain of command in the agency today. 
There is a hurricane.
    Admiral Johnson. Well, I will describe a hurricane that may 
occur this coming summer. There is a chain of command that 
exists at the field level. At the field level, on the Federal 
side, we will stand up a joint field office. At that joint 
field office----
    Ms. Norton. Wait a minute. Help us now. There is a 
hurricane.
    Admiral Johnson. Right.
    Ms. Norton. Then when you get into levels and all, I am 
trying to make the public understand, not to mention me, what 
happens.
    Admiral Johnson. Right. Hurricane hits in Florida. Craig 
Fugate, who will talk to you in just a few minutes, will stand 
his emergency operation center up and the State of Florida will 
begin to respond to the requirements of that hurricane. In some 
areas----
    Ms. Norton. Now, I know what Florida will do. By the way, 
they are perhaps better than the Federal Government. I am 
trying to find out there is a hurricane. Let me go further and 
say there is a disaster declaration, because I guess you can't 
do much, at least at the headquarters level--and that is what I 
am interested in, chain of command. By the way, how long did it 
take a disaster to be declared in Katrina?
    Admiral Johnson. I believe a disaster was declared--I don't 
know the exact date that the disaster declaration was signed by 
the President post-Katrina----
    Ms. Norton. Now, did you say whether the strike teams 
needed to have the disaster declared before they moved?
    Admiral Johnson. They do not.
    Ms. Norton. Okay. So let's assume the kind of situation 
that I think is more likely to occur than not. You have the 
beginning of what could be a major disaster. The President 
will, I think, quite justifiably say, wait one minute, when I 
say disaster declaration, I say money. And I don't think he 
should go around just declaring, you know, from the newspapers.
    Admiral Johnson. Right.
    Ms. Norton. So your strike teams don't have to wait. That 
is good. What is the chain of command? This is an agency within 
an agency. The strike teams don't need anything from 
headquarters, they just move, or do they need anything from 
headquarters?
    Admiral Johnson. The region strike team will work for the 
regional administrator, and he will direct them to respond to 
an event in advance of a declaration.
    Ms. Norton. Okay. We have got the strike team not waiting 
for the declaration. What is the chain of command for what 
happens next at the Department of Homeland Security, which has 
the oversight for FEMA?
    Admiral Johnson. A Federal Coordinating Officer, FCO, has 
been predesignated for the hurricane season, so----
    Ms. Norton. That officer is part of FEMA or a part of the 
Department of Homeland Security?
    Admiral Johnson. A part of FEMA.
    Ms. Norton. Okay.
    Admiral Johnson. And that person comes with authorities in 
the Stafford Act. So for the hurricane season we have 
predesignated them already. So for each of the 11 hurricane 
impact States we can have you meet the individual who is the 
FCO. We predesignate so they go to the State now, in advance of 
hurricane season, meet with the State Office of Emergency 
Management----
    Ms. Norton. He goes when FEMA tells him to go.
    Admiral Johnson. That is correct.
    Ms. Norton. He doesn't have to go beyond the Administrator 
of FEMA.
    Admiral Johnson. No, ma'am.
    Ms. Norton. Okay.
    Admiral Johnson. It is at our direction. The FCO arrives 
and the FCO works for Director Paulison, and the FCO has a 
staff that works for him or her. So that chain of the command 
is from the FCO back to the Administrator of FEMA. And if we 
resolve all those issues, that is where it stops. If the FCO 
identifies either policy or resource issues that we can't 
satisfy in FEMA, then we will go to the Secretary.
    Ms. Norton. So you are telling me that FEMA gets to act on 
its own unless you need more resources or unless there is a new 
policy issue.
    Admiral Johnson. That is correct.
    Ms. Norton. That is very important. Otherwise, most Federal 
agencies never have to ask question, because policy has long 
been set by the Congress and by the agency Secretary, and 
resources are all you have got. Resources here, of course, if 
there are additional resources for an agency declaration, how 
do they come? The President declares a declaration. Are 
resources immediately available?
    Admiral Johnson. That is correct. Resources are available 
and the Federal Coordinating Officer can use----
    Ms. Norton. And he gets those from where? He gets those 
resources from whom?
    Admiral Johnson. Out of the Disaster Relief Fund. So he or 
she will issue mission assignments to other agencies, and those 
mission assignments will be paid for out of the Disaster Relief 
Fund. We will reimburse agencies for costs incurred.
    Ms. Norton. As I hear it, never again will we hear somebody 
having to go to the Secretary of Homeland Security once there 
is a disaster, unless the disaster presents new issues. I don't 
see that Katrina presented any new issue. I recognize that the 
Post-Katrina Act had not been passed.
    Admiral Johnson. Right.
    Ms. Norton. But I don't think that Katrina presented any 
new issue. It was clearly a hurricane; there was, you indicate, 
almost immediately a declaration and, voila, you are there. Of 
course, once one saw the size of the hurricane, one would have 
expected the entire Department to be involved.
    Before I ask any more questions, Mr. Arcuri, do you have 
any? I have only a few more questions that I just want to make 
sure I ask for the record.
    The Committee would be very concerned about the national 
response plan. Now, for the national response plan could not be 
more important--here is another one of those Federal words--
because the first time that there would be a plan that 
incorporated the entire United States and all of its sectors: 
the private sector, the Federal sector, the States, and the 
local sectors. It obviously doesn't say what each does in some 
kind of diagram fashion, but it sends the signal that there is 
a national or comprehensive vision as to what ought to happen 
in the event of an event, no matter what the event. Now, that 
is something that we are very focused on. We know that it is 
due by June, and I must ask you will we have it by June?
    Admiral Johnson. We have a team, a cross-agency team, a 
team that includes private sector, a team that includes State 
and local representation. They are working very intently to 
incorporate recommendations into the rewrite of the national 
response plan. We have indicated an intent to have that plan 
out on the 1st of June, and we still hope to make that target.
    Ms. Norton. The comment period for that plan is as 
prescribed by the APA, the Administrative Procedure Act?
    Admiral Johnson. The comment period, when we have a draft 
of rewritten NRP, then we will put that draft out for comment, 
and that draft will go out to all the State and local agencies, 
private sector entities, all of the Federal agencies, and 
expect their comments to come back.
    Ms. Norton. I am sorry, did you say what the time period 
was?
    Admiral Johnson. It will go out, likely, later in May.
    Ms. Norton. No, for comment.
    Admiral Johnson. Oh, it will go out for about a two week 
comment period.
    Ms. Norton. Oh, my goodness.
    Admiral Johnson. When they did the 2004 plan, more than 
9,000 comments came back, so we expect a lot of comments to 
come back that will be adjudicated by our team.
    Ms. Norton. You know, it may take two weeks to read and 
understand the plan, Admiral Johnson. Where did you get the two 
week period from? You mean in June, once it gets put out in the 
first place?
    Admiral Johnson. No, ma'am. We will take the draft of the 
plan and that will go out for comment to our constituency 
groups so they get a chance to see and comment on the draft 
plan before it becomes a final plan.
    Ms. Norton. So I guess you are trying to beat the June 
deadline if you are putting it out. The nature of the plan, the 
cosmic nature of the plan, I recognize there have been some 
comments, makes it very important that there be adequate time, 
and you may have to extend the period if there are complaints 
about it.
    Let me ask a final question on agency personnel. The Post-
Katrina Act authorizes the Administrator to pay a bonus of 25 
percent of basic pay to retain an employee whose qualifications 
are important to the agency. Has the Administrator paid any 
retention bonus since the beginning of the year?
    Admiral Johnson. I would have to come back and give you the 
specific numbers. I will say yes, that we have used that 
authorization, and we have used other authorizations within the 
legislation. In the middle of March we reached 90 percent 
staffing inside FEMA. It has been a long time since FEMA 
reached that level of staffing, and our objective----
    Ms. Norton. Say the level again, I am sorry.
    Admiral Johnson. Ninety percent. So we have less than 10 
percent vacant positions. At times we have had as many as 20 
percent vacant positions. Last year we had 15 percent vacant 
positions. So now we are down to less than 10, and our target 
is to be at 95 percent staffing before hurricane season.
    Ms. Norton. Yes, the Act requires a report on vacant 
positions, number of applications for those positions, reducing 
the time and so forth. If you have got 90 percent, you may well 
be meeting what we expected; however, there are very serious 
issues from your headquarters staff that I mentioned to you the 
last time that seem to indicate a morale issue. Is the rate of 
retention of senior management at FEMA in your headquarters at 
90 percent as well?
    Admiral Johnson. I don't have----
    Ms. Norton. I am sorry, is there attrition of your senior 
managers or are you at 90 percent there as well?
    Admiral Johnson. We are at 90 percent staffing across the 
board. I believe we are at 90 percent staffing with our senior 
management. But we are seeing, and have seen for a couple 
years, significant attrition from FEMA both in terms of 
retirements, people who choose to leave FEMA to work in some 
other location.
    So when I indicate that we are at 90 percent, that is a 
significant accomplishment because it means that not only have 
we hired to cover those who depart FEMA and hired in order to 
cover new positions created, but also hired to fill positions 
that have long time been vacant. So it is an issue. Attrition 
is always an issue. But we are able to move beyond that to 
achieve our staffing level.
    Ms. Norton. Mr. Johnson, what have you done to address the 
serious morale problems that are reported out of the 
headquarters that I mentioned to you at the last hearing?
    Admiral Johnson. First, it would be my contention, Madam 
Chairwoman, that the letter you are referring to overstates 
that problem.
    Ms. Norton. Well, we certainly do not----
    Admiral Johnson. I understand.
    Ms. Norton. We would never accept as gospel such 
complaints.
    Admiral Johnson. And as you indicated at our last hearing, 
I appreciate the context that you raise that issue and context 
that you have read many of these before and you understand that 
environment. What I would say is that we have addressed the 
morale issue in a number of ways, number one, by staffing. So 
we are filling vacant positions. More than 60 percent of the 
positions that we have filled have been internal hires, so FEMA 
people have had a chance to improve themselves and receive 
higher pay, more responsibility by advancing in the new 
positions.
    We have addressed the morale issues by bringing in good 
solid leadership, not the least of which is Director Paulison. 
He holds quarterly meetings with all hands, and held one just 
two weeks ago, at which he gets a lot of tough questions and a 
lot of satisfaction both for him and for the employees who get 
a good chance to engage their administrator and address their 
issues.
    We are very conscious of morale issues and we are very 
conscious of weariness in FEMA, people who work very, very long 
hours, all focused on trying to provide good service to the 
American public.
    Ms. Norton. Have you met with employees, whether with the 
union or not, or with employees since our last hearing?
    Admiral Johnson. No, ma'am. I believe our hearing with you 
was on a Friday, and just the day before, on Thursday, we held 
an all hands meeting that was attended by several hundred, as 
well as a video link to all of our 10 regions. That is 
typically every quarter the Secretary will hold an all hands 
that links by video to all of FEMA.
    Ms. Norton. Well, if it happens every quarter and you have 
these problems here, I again say that they must be addressed 
and again I told you we are really grown up about complaints 
from the point of view of management or labor. So I would be 
concerned about morale and indicate whatever the problem, a 
morale problem is a problem.
    Finally, as you are aware, Admiral Johnson, I was concerned 
in our hearing on the Federal Protective Service that the 
Department of Homeland Security did not require the new hire 
for the position of Director of that service to have the 
traditional law enforcement background. Apparently, he had had 
some training background, he was in the military.
    I spoke with the Chairman of the Full Committee, who has 
indicated that he has similar concerns, but joins me in having 
concerns about another of the criticisms of what I am sure you 
would call the old FEMA, and that was whether people had the 
requisite emergency service background. I have indicated ways 
in which you are beginning, I think, to restore confidence in 
the agency in some of the things, for example, the chain of 
command that you reports, the way you handled the most recent 
events in the Midwest and in Florida.
    But I am very concerned about reports about who new hires 
may be with respect to their background and emergency 
management, since that was seen as the--if you would name 
again, the top 5, it would be that top personnel had not had 
emergency management training. For that matter, the Secretary 
was a judge when he was appointed. He was a smart man, but he 
had been a Court of Appeals judge. I can tell you, as a lawyer, 
the last thing you have done is to manage anything. Lawyers are 
paid to slow things down; they are experts at bureaucracy. I 
don't have any particular beef with the Secretary with respect 
to that, but you can see that from the top on down--and that 
does not include you, Admiral Johnson--that kind of experience 
was not exactly very clear.
    Therefore, the Chairman and I have decided to ask the 
Government Accountability Office to conduct an audit of the new 
hires and personnel transfers into FEMA since January 2007, to 
ensure the Committee that the new hires--and you tell us that 
there are a very substantial number of them--have adequate 
background in emergency response, which would further assure us 
that there is a new FEMA. We will also ask the Ranking Member 
and Chairs of the appropriate Subcommittee to join us in asking 
for that GAO study.
    Thank you very much for coming forward today. That is a 
vote. And would you believe it, I think even I have to vote. I 
can vote in the Committee of the Whole, so I am going to go to 
the floor. I will return forthwith. I will return almost 
immediately. I think other Members will have to remain for 
final passage, a motion to recommit, but I will return because 
I am very anxious to move forward with the second panel, and 
ask your indulgence.
    Thank you very much, Admiral Johnson, for appearing.
    The hearing will resume in approximately 15 or 20 minutes.
    [Recess.]
    Ms. Norton. Thank you very much. I have spoken with the 
Ranking Member, Mr. Graves, who came at the end of the last 
part of the hearing, with Admiral Johnson, and he indicated to 
me that he did not want to detain the witnesses. He is likely 
to be held past the motion to recommit and the vote, and he 
will get here if he possibly can, but he said he did not want 
to detain the witness. I had a good conversation with him and 
that was his preference.
    We have with us--we think the Committee will be best 
informed by asking Mr. Witt to appear on the panel with Mr. 
Fugate and Mr. Selves. Mr. James Lee Witt, who, of course, is 
much remembered here as the first head of FEMA in the Clinton 
Administration, today is CEO of James Lee Witt Associates, of 
GlobalOptions Group; William ``Craig'' Fugate, who is Director 
of the Florida Division of Emergency Management and a member of 
the National Emergency Management Association; and Michael D. 
Selves, who is the President of the International Association 
of Emergency Managers.
    Let's start with Mr. Witt.

TESTIMONY OF JAMES LEE WITT, CEO OF JAMES LEE WITT ASSOCIATES, 
   A PART OF GLOBALOPTIONS GROUP; WILLIAM ``CRAIG`` FUGATE, 
  DIRECTOR, FLORIDA DIVISION OF EMERGENCY MANAGEMENT, MEMBER, 
   NATIONAL EMERGENCY MANAGEMENT ASSOCIATION; AND MICHAEL D. 
SELVES, CEM, PRESIDENT, INTERNATIONAL ASSOCIATION OF EMERGENCY 
                            MANAGERS

    Mr. Witt. Thank you, Madam Chairman, for asking me to 
participate in this hearing today. Let me just say I appreciate 
the support of emergency management by Chairman Oberstar, 
Congressman Young, and the hard working staff of this Committee 
that has been offered over the years. You were the lone voices 
expressing concern and raising objections to the inclusion of 
FEMA into the Department of Homeland Security in 2002, and a 
lot of us thank you for that.
    My concern at the time was that including FEMA as part of 
the newly formed Department of Homeland Security would dilute 
the mission of the Department and force FEMA to be overly 
focused on mitigating one hazard at the expense of others. It 
was my experience, when serving as Arkansas State Director of 
Emergency Management in 1980 that FEMA had been overly focused 
in a particular hazard at that time at the expense of others, 
and that was because of the cold war and nuclear preparedness.
    I see the current situation as being very similar to what 
we faced when I became FEMA Administrator in 1993. While the 
threat of terrorism in our world is still very real, I have 
always feared that FEMA's position within DHS would result in a 
diversion of resources away from natural hazards in favor of 
counter-terrorism efforts. When I became Administrator of FEMA 
in 1993, we needed to refocus the agency's priorities and 
resources so that many of the national security assets would 
have dual use for natural disasters as well in an all hazards 
approach. We realigned personnel and made sure that everything 
was consistent with our risk-based all hazards focus.
    Congress, through the Oversight Appropriations Committee, 
played a critical role in this reinvent of FEMA, which is why I 
believe your work here today is so important. Leaders like 
Congressman Louis Stokes, Congressman Jerry Lewis, Senator 
Barbara Mikulski, Senator Kip Bond, who worked with us and 
provided the funds to support in a bipartisan way to get things 
turned around was very, very important. The partnership between 
the administration and Congress allowed us to look at 
legislation changes and clarifications that made FEMA even more 
effective in responding.
    Let me just say the eight years I was at FEMA and the 
reorganization of FEMA, and the change that happened in FEMA to 
make it one of the most successful Federal agencies in the 
Federal Government at that time, that change happened because 
the employees in FEMA helped make change happen. We empowered 
the career FEMA employees who had been working on these issues 
for 20 years and we listened to their ideas and encouraged 
their innovation. We instituted a new customer service training 
program where we would focus on not only external customers, 
but internal customers as well, how we treated each other. We 
were able to work together and focused on one mission, a new 
mission for the agency.
    However, the career civil servants of emergency management 
knew how we could turn FEMA around. All that I and my 
management team needed to do was to listen and to work with 
them and establish the goals and priorities for the first year 
to move the agency forward. This effort to empower the career 
employees not only happened in Washington, but I think it is 
important to stress how involved the 10 FEMA regional offices 
were as well. The regional office staff established good 
relationships in partner with State and local governments, and 
we felt it was very important that we planned, trained, and 
exercised together with our State and local partners.
    We worked with our State and local partners to create 
State-wide plans that mirrored the Federal response plan. We 
believed that it was our responsibility to make sure that the 
State and local governments never failed in their response to a 
disaster, and it was our job to help make sure that they were 
successful in protecting the lives of property to a community.
    I think today, with the risks that we face in our Country, 
and the risks that State and local governments face, with them 
being the frontline defense of everything that happens, from 
natural disasters to terrorist risks, I think it is absolutely 
critical that we do risk-based, all hazard planning, training, 
and exercising because a risk-based, all hazard approach is the 
foundation of everything that we do and how we respond.
    When it comes to consequence management, it does not really 
matter whether it is an earthquake or an explosion that brings 
down a building. The response and recovery efforts are the 
same. When the Oklahoma City bombing happened, that was a 
presidential declared disaster as well as a crime scene. 
Working the consequence management classes management with the 
FBI, ATF, and other Federal agencies, it was a very good 
example of what worked, how it could work, and it was a huge 
success in that response, with 15 national search and rescue 
teams working that building, helping the FBI, local law 
enforcement to preserve evidence at the same time.
    But, in closing, let me say this. I think we, as a Nation, 
need more support for State and local governments, not only the 
funding grants and EMPG program, but we need more support for 
them for preparedness training and exercises. And I have not 
heard once today, but we need to support them in public 
awareness, public education campaigns so individuals can help 
themselves to be better prepared.
    Thank you for having me.
    Ms. Norton. Thank you very much, Mr. Witt, for your 
testimony.
    Could we hear from Mr. Fugate, Florida Division of 
Emergency Management?
    Mr. Fugate. Thank you, Chairman Norton, Members. I have 
submitted my written testimony, so I am going to go into an 
oral statement.
    My representation here is as a State Secretary, but also 
representing my counterparts through the National Emergency 
Management Association, the State secretaries of the other 50 
States and territories and the District of Columbia.
    Three issues that are very important to us is to maintain 
the all hazards approach. Madam Chair, you have asked this 
question, and I am going to give you an answer different than 
anything you have heard about all hazards. I am going to come 
back to that.
    The continued need by your Committee and Congress in the 
oversight of FEMA. Again, since the Disaster Mitigation Act of 
2000, this is really the first time Congress has actually laid 
out outcomes an expectations of FEMA. Remember, FEMA doesn't 
really have any legislation that you can point to that actually 
describes it; it has always been done through variations of the 
Civil Defense Act, the Stafford Act, and budget language.
    This is the first attempt, really, to say that you should 
have a director that is qualified, you lay out expectations. 
Since we all work for the people and you represent the people, 
it is important that you maintain what those outcomes and 
expectations of FEMA should be by defining FEMA, versus only 
allowing it to be defined by budget or the interpretation of 
policy.
    Finally, the last thing is always it requires money. So, 
Madam Chair, as usual, you can't make this work without 
funding, and if you only fix FEMA and you only fix FEMA, I ask 
you this: how many fire trucks does FEMA have here in the 
District versus how many fire trucks does the District of 
Columbia have? If there is not a partnership and a team built 
where most of our resources are, which are not the Federal 
level, I am sorry to say, even the Department of Defense does 
not even come close to the number of fire trucks, ambulances, 
and sworn law enforcement officers, as well as skid loaders, 
dump trucks, and public works employees in every community in 
this Country. That is the team. Those are the resources. We 
need to continue the Emergency Management Performance Grant 
funding and increase that to continue building that team, so in 
a disaster we not only look to the Federal Government, we are 
able to look to every other non-impacted State and community, 
and look at those resources as part of the national team that 
can meet our citizens' needs in time of disaster.
    So with those three things, let's talk about all hazards. 
We usually try to define it by disaster. I think that is the 
wrong approach. I also think it is the wrong approach to say 
there are natural disasters. There is no such thing. There are 
hazards that are out there that are only a disaster when we 
build and live in such a way to make ourselves vulnerable. But 
what do a hurricane, a wildfire, a drought, a foreign disease 
outbreak all have in common? We call them natural, but the 
reality is the response is entirely different. The agencies and 
equipment are entirely different.
    A terrorist sets off a bomb in your community. You get a 
letter with anthrax, as we did at the AMI Building in Florida. 
That is a terrorist event. Well, how do you respond to that? 
What is unique about that? What is different? Well, it is going 
to take an entirely different response for each one of those. 
What is the common element? This is what all hazards really 
means, Madam Chairman. Guess what? The governor of the State of 
Florida, Governor Charlie Crist, who serves the people that 
elected him, will be the governor in every one of those events. 
The sheriff of those jurisdictions will be the lead law 
enforcement agency in every one of those events. The local fire 
department will be the first units on those scenes in every one 
of those events.
    All hazards is you need to build teams based upon your 
community's resources, not the disaster, because we don't even 
know what the next disaster is going to be. I know hurricane 
season starts June 1st, it ends November 30th, but I don't know 
if we are going to have a storm. I cannot tell you what the 
next disaster will be. Nor can I plan for every disaster. But 
if I build a team based upon the key elements that need to 
occur in a disaster: to be able to make sure we can make our 
community safe by securing it; that we can reach the injured 
and get them the medical care not in 72 or 96 hours, but in 24 
hours, when you can make a difference, which means it has got 
to be local or regional-based; that you can meet the basic 
needs of your community and stabilize that loss and rebuild and 
recovery, that is what all hazard is.
    You may have different agencies that lead, just like we are 
facing wildfires and drought in Florida. Water management 
districts are the lead agencies for the droughts; our Division 
of Forestry is the lead agency for the wildfires. Entirely 
different issues, entirely different challenges, but it is the 
same team. It allows us to bring together all of our agencies 
at the State level--our National Guard, our local governments, 
our private sector, and our voluntary groups--as one team 
focusing on the impacts and the consequences of the hazard and 
its impacts on the community, many of which share many 
similarities, but occasionally are very unique.
    So that is how we have been using the homeland security 
funds, to build the capability and capacity unique to terrorist 
threats, weaponized chemicals, biologicals, blasts, and the 
unfortunate real big concern, improved nuclear devices. But 
look at what you are going to end up doing in every one of 
those disasters. You have to reestablish communication with the 
community; you have got to secure it; you have got to rescue 
the injured; you have got to stabilize it.
    Thank you, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Fugate.
    Mr. Selves?
    Mr. Selves. Madam Chairman, thank you for allowing me the 
opportunity to provide testimony on this important topic today. 
I want to express our sincerest gratitude for the great support 
this Subcommittee has always provided to emergency management 
community, particularly your support of the Emergency 
Management Performance Grant and, most recently, for the reform 
of FEMA.
    As President of the International Association of Emergency 
Managers, I represent 3,000 members, most of whom are local 
emergency managers. Because of the nature of our jobs, I am 
often asked what do emergency managers do, and I have told my 
county commissioners that emergency managers are the people you 
hire to tell you things you don't want to hear, ask you to 
spend money that you don't have, and prepare preparation for 
something you don't believe will ever happen. So that is 
basically what we do.
    In order to address today's topic, we need to look at a 
total national system of emergency management. In the past, 
this system has been characterized by a cycle of neglect, 
crisis, and further neglect. One of my colleagues refers to 
this as the spare tire cycle of emergency management. Just like 
we forget and neglect the condition of our car's spare tire 
until we have a flat; likewise, we forget about and neglect the 
emergency management system until we need it.
    This is very evident by looking at the flawed responses to 
Hurricane Hugo and Hurricane Andrew, which were essentially 
repeated in Hurricane Katrina. Why do we seem to bounce from 
one disaster to the next? The answer, I believe, is that we 
have failed to commit to a solid, consistent, and enduring all 
hazards system that links critical partners all the time. If we 
had such a system, our chances of success would be enhanced 
regardless of the nature of the last disaster or of the next 
one. There are some very basic elements which characterize this 
kind of system. First, it must be comprehensive; it must 
encompass all potential hazards, all potential impacts relevant 
to any community. This must take into account all of the 
impacts of a disaster, not only the physical ones, but the 
economic ones, the political ones, the sociological ones.
    Second, it must be integrated. Such integration demands 
that linkages are in place and that all relevant agencies at 
the local, State, and national level are involved and engaged. 
Without unity of effort before, during, and after any disaster, 
the effort is going to be chaotic at best and, at worst, doomed 
to failure. Comprehensive and integrated plans on paper are not 
sufficient, however. There must be a well established 
collaborative attitude driving the system. Key stakeholders 
must be broadly involved, frequently consulted, and their 
inputs sincerely valued in order to ensure that roles, 
responsibilities, and relationships are fully understood and 
adopted. In other words, if we shake hands before the disaster, 
we won't have to point fingers afterward.
    In order to revitalize and maintain this comprehensive 
system, IAEM would emphasize three critical areas: first, the 
restoration of the authority and the capability of Federal 
emergency management agency so that the national effort can be 
fully integrated once again. Included in this would be your 
continued oversight of the implementation of the Emergency 
Management Reform Act of 2006.
    Second is the adequate funding of State and local emergency 
management agencies. Director Witt and Director Fugate have 
discussed EMPG and its importance, and we would simply say that 
that needs to be retained as a separate account; it needs to be 
funded at the full $375 million authorization that it currently 
has; and it must be based on an all hazards approach.
    Thirdly, we believe that there needs to be establishment 
and support of programs and institutions which sustain a 
culture of preparedness and answerability to be ready in times 
of crisis. That includes such things as the Emergency 
Management Assistance Compact, which allows us to share 
personnel across State lines in times of emergency; the 
Emergency Management Accreditation Program, which is a joint 
NEMA-IAEM program, to ensure that State and local and 
territorial emergency management functions are consistent and 
accredited; and then, finally, the Certified Emergency Manager 
Program, which is an accreditation, a credentialing system that 
IAEM has for emergency managers to ensure that they have the 
necessary skills land the necessary background and training 
that they need to do the job under any circumstances. Finally, 
we would support the Emergency Management Institute as the 
primary Federal entity for the development of general emergency 
management education, training, and doctrine.
    In closing, your emergency managers at all levels of 
government are constantly working to restore and improve this 
national system upon which so much depends. We thank you for 
your support and understanding in the past, and we ask for your 
consideration of our needs and our recommendations in the 
future. Thank you.
    Ms. Norton. Thank you very much, Mr. Selves.
    I appreciate the testimony of all three of you. We have a 
few questions.
    They first relate to the chart that we used showing various 
parts of the Country, and, of course, some parts of the Country 
have more severe natural disasters than others. Only one part 
of the Country, where we sit, has had a terrorist disaster, 
yet, we have every reason to be mindful and prepared that that 
is the kind of disaster we were least prepared for, leaving 
aside the example of Katrina, I might add.
    This notion of all hazards you heard me ask Admiral Johnson 
about and the notion of comprehensiveness and being able to do 
everything because, come what may, you are going to have to do 
it anyway, was, from the very beginning, what FEMA understood, 
and once it went into Homeland Security, there was testimony 
after testimony that said that is the way it was going to be; 
we just prepared to do whatever comes up.
    A number of changes were made simply because FEMA was in 
another agency, and one of those changes was the fusing of 
funds for terrorism, prevention, and natural hazards. You heard 
me ask Mr. Johnson, perhaps, about the very small amount, the 
second chart, only 10 percent for natural hazards. I said at 
the same time I wasn't suggesting that Homeland Security should 
not get the same funding, but I did note that keeping the 10 
percent has been very difficult because of the application 
process, among other things.
    I have stopped using the word ``all hazards'' because I 
think that once you say that, I still don't know what people 
are talking about and hazards have been redefined in terms of 
terrorism. People are aware that emergency managers get most of 
their equipment from the States and localities that deal with 
emergencies, and that terrorism presented a need for entirely 
new strategies, new equipment that the States had no reason to 
have.
    I would like your view of the fusing of funding; your view 
of the 10 percent, bearing in mind that the Federal Government 
is not supposed to be paying for most of what emergency 
responders to because most of what they do comes out of their 
local budgets and we are not trying to displace that, nor could 
we. Whereas, of course, neither local nor the national budget 
dealt with so-called terrorist funding.
    What is your understanding of the way this funding is 
divided, and do you think it is appropriate?
    Does Mr. Witt want to go first? Actually, whoever wants to 
go first.
    Mr. Fugate. Madam Chair, our experience in Florida is that, 
immediately after the attack, the primary focus on terrorism, 
which was actually pre-September 11th, was on chem and bio 
threats. We saw that continue in the initial appropriations 
after 2001, although we saw in the attacks the primary threat 
was blast crush and the types of injuries and deaths you were 
going to see with explosives, which had been primarily the tool 
we have seen in the Middle East, suicide bombers, suicide 
trucks, and those types of events, going all the way back to 
the Oklahoma City bombing. But recognizing that chem and bio 
was a threat, we began looking at those funds and how you build 
capacity.
    Now, Florida faces unique challenges because we are a major 
tourist destination, we have major ports. The terrorists 
trained for the attack in Florida. We had the first anthrax----
    Ms. Norton. Did all that come out of the terrorist funding?
    Mr. Witt. Well, the funding was coming out, for this 
particular area, was predating September 11th, were funds that 
were already made available to States began planning for 
weapons of mass destruction. So when you really started talking 
about----
    Ms. Norton. So those funds came from where, then?
    Mr. Witt. They came from the Federal Government as part 
of----
    Ms. Norton. Was this before the establishment of the 
Department of Homeland Security?
    Mr. Witt. Yes, ma'am. These were funds that were coming out 
of the Department of Justice, which, if you go back in history, 
explains some of the trouble we had as these programs began 
merging together. You were taking programs out of the 
Department of Justice, with their management style and 
application, bringing them in to the Homeland Security 
Department that had a totally different--well, first of all, 
Homeland Security had no culture because it was a collection of 
pieces.
    So you have one set of programming and guidance coming down 
from the Justice Department; you have another set of funding 
that was coming down from FEMA; you had other funding that was 
coming down from Transportation, all being merged into those 
programs. So we actually went through several years of changing 
and conflicting prioritizations based upon which way 
organizations were trying to implement these plans based upon 
where they had come from. So as programs moved, program 
guidance would change, even though the intent from Congress was 
the same.
    We saw money moved out of Transportation that went to 
Homeland Security that under Transportation would have made it 
eligible for Florida to fence our ports, but when it got to 
Homeland Security under the Justice programs, they did not do 
capital projects, so they disallowed the fencing issues but 
said find a way to spend the money.
    These were some of the challenges we faced in building our 
capability of responding to these threats, building capacity on 
top of resources we already had, and looking at the threats of 
weapons of mass destruction, but also looking at, increasingly, 
the real risk, which was going to be bomb and blast type 
destruction. So we had to build more search and rescue teams; 
we had to increase our hospital capacity for burn and crush 
injuries, which we did not have.
    As we saw on September 11th, you literally had to fly burn 
patients from this area all over the Country because our 
ability to deal with those types of patients wasn't very 
robust. Yet, we were spending lots of money on doing chemical 
protection with antidotes for chemical weapons that have yet to 
be used in the States.
    So we went through, as the States, oftentimes year-to-year, 
a lot of conflicting and often changing parties trying to build 
systems and capacities to deal with these threats, and the one 
thing that we didn't see early on was the prevention element. 
We were spending a lot of time focusing on the consequence of 
an event and not as much on how to prevent and harden against 
events.
    Now, that has been rectified. Congress has come back and 
put more emphasis in prevention. But when you dump all this 
into the States and the local governments in what we considered 
a state of war, and trying to get ready, it produced huge 
challenges. To this day, even moving these programs back to 
FEMA, there won't be a quick fix as we try to reconcile how we 
prioritize, what is the responsibility and role of the Federal 
Government to fund what in many cases is a national threat 
versus roles and responsibilities local governments have for 
the day-to-day emergencies and challenges they face, and making 
sure that is balanced.
    I think it has been one way on the weapons of mass 
destruction and terrorism. I think it needs to switch back. But 
I think there also has to be buy-in. You give us money for 
homeland security at 100 percent; everything else is a match 
requirement. I think match kind of goes against being a State 
and local. But unless you have some ownership of the process, I 
think you get some of the results you have with 100 percent 
Federal programs. When locals have to punt up and those boards 
have to vote money for it, I think you start seeing where the 
community really puts their parties and their issues.
    Ms. Norton. Do either of you have anything to say about 
that question?
    Mr. Witt. Madam Chairman, I would just say this. The money 
that has gone through the Department of Homeland Security to 
State and local governments to buy the type of equipment that 
they might need for a biological terrorist type event is 
basically to mitigate and prevent responders and communities 
from becoming a victim.
    But if you look at it generically across the Country, 
Florida has probably done a better of intertwining homeland 
security terrorism funding with the CDBG and everything that 
they are doing with State funds and all the different ones, and 
working with their communities. But you go into other areas and 
the terrorism funding down into some States, a lot of time it 
has created problems and making emergency management less 
effective than it was before the funds ever came there, because 
everybody is focusing on terrorism.
    So I have seen it working both ways. I think there needs to 
be, through this Committee and what you are doing, moving 
preparedness training and exercising grants back under FEMA is 
an excellent step, but I think as this evolves and this 
oversight Committee continues to look at this, then I think it 
is going to be important that you look at what kind of 
standards are established--there are still yet no standards for 
inoperability of public safety communications--and other 
standards that people are going to have to come up to and meet. 
They are not there right now, and I don't know what you--but is 
not good.
    Ms. Norton. Mr. Selves?
    Mr. Selves. Well, I think Director Witt referred to 
something earlier called crisis management and consequence 
management, and I think those are important concepts that we 
need to keep in mind. FEMA had always been consequence 
management oriented. In other words, it didn't matter what the 
nature of the disaster or the event was, we planned and 
organized ourselves to perform functions that were necessary to 
deal with the impact of that disaster.
    All disasters pretty much have certain things in common: 
they have sick people; they have injured people; they have dead 
people; they have destroyed infrastructure; they have building 
collapsed; transportation that is disrupted. And all of those 
things fell under FEMA's responsibility under the consequence 
management part of that.
    Certainly, FBI and the Department of Justice had equally 
important, if not more important, responsibilities for 
investigating, preventing, capturing, prosecuting, and doing 
all the things necessary to deal with the terrorist event, but 
when we talk about all hazards from an emergency management 
point of view, we mean all.
    And the priorities that we would set on the kinds of 
equipment that we would have, the kind of training that we 
would put forward would be, first of all, those things that are 
common to all hazards that we need to be able to provide for at 
the local level, and that would be our approach to it, and that 
is what we mean by all hazards, is that it doesn't matter what 
the hazard is. We try to create a capability that is ongoing to 
deal with it regardless of what it is and when it might occur.
    Ms. Norton. Well, when you create a whole new department 
based on a terrorist attack, then obviously you lose your 
balance, and one of the things we tried to do with the Post-
Katrina Act--you lose the balance so bad that you have a 
Katrina. And one of the things that we are trying to do with 
the Post-Katrina Act was somehow to get that balance back.
    What all three of you have had to say about all the hazards 
is very important to us. Obviously, it hides a multitude of 
subsets when you consider what the day-to-day work of emergency 
responders are and consider that, nevertheless, they have to be 
responsible for whatever happens, including a terrorist event. 
We expect the Department to be able to find its way, but we are 
concerned that it be flexible enough to do so because, as it 
learns more, all hazards and some greater balance will occur, 
you are aware that the Congress gave FEMA more autonomy after 
there was a serious disagreement among Committees, indeed, 
three Committees, I guess, as to whether FEMA ought to be 
entirely independent.
    You heard me ask about the reporting relationship. Having 
made a compromise that leaves FEMA within the Department of 
Homeland Security, but with some greater autonomy, I was trying 
to find out what that means. Are you convinced that the 
reporting relationship created by the Post-Katrina Act within 
the Department of Homeland Security makes FEMA nimble enough to 
move even though it is within a super-agency? Move and get the 
job done everywhere, all the time, to assist first responders?
    Yes, Mr. Witt.
    Mr. Witt. Madam Chair, I think that it is a move in the 
right direction, making FEMA autonomous with its own budget. I 
think it is important that the Administrator of FEMA reports 
directly to the President during presidential disaster 
declarations. I have----
    Ms. Norton. I am sorry, what was that last thing you said?
    Mr. Witt. I think it is important that the Administrator of 
FEMA report directly to the President during presidential 
disaster declarations.
    Ms. Norton. Well, wait a minute. Even though he reports to 
the Secretary, I suppose, all the time because he is within 
DHS, you think his reporting relationship should shift, is that 
what you are saying?
    Mr. Witt. The Administrator should report directly to the 
President during a presidential disaster.
    Also, I have a tremendous concern and cannot understand why 
they have an FCO and a PFO.
    Ms. Norton. Well, would you describe--Mr. Selves spoke 
about that. There seems to be some real concern about this. 
Here we go with another bureaucratic term, principal Federal 
official. Would you speak in layman terms about----
    Mr. Witt. Okay. Let me just say this.
    Ms. Norton.--both the functions and why you think that it 
is appropriate?
    Mr. Witt. When I was Administrator of FEMA, we created the 
Federal Coordinating Officer Program. The Federal Coordinating 
Officer, the intent of that was to be the President's person on 
the ground to make the decisions that needed to be made 
quickly, working with the State Secretary of that State during 
a crisis. And then they added a PFO. What authority does a PFO 
have or what is the intent of a PFO? I have never understood 
that.
    Ms. Norton. Well, does that mean that there is a dual 
report----
    Mr. Witt. I am not sure how they report. It is another 
added layer of bureaucracy between the----
    Ms. Norton. What did they say? Why was he added? I suppose 
I should be asking Admiral Johnson.
    Mr. Selves. Maybe Craig knows.
    Ms. Norton. You may be aware of what their rationale was.
    Mr. Fugate. Madam Chair, the Principal Federal Official, as 
it was originally intended to be, was for, prior to an event 
being declared, to help coordinate between the Department of 
Justice and FEMA. That was the original role. As it has been 
utilized, I have to take into question why Admiral Johnson 
stated that the Federal Coordinating Officer has the full 
authority of the President to direct activities of all Federal 
agencies.
    Yet, we also heard that the Principal Federal Official was 
there to referee if the Federal agencies weren't playing nice 
with the FCO. That either tells me the FCO is impotent or the 
FCO doesn't have any authority, because as you see it, the 
Principal Federal Official is usually, in the hierarchy of 
Federal Government, a senior Federal official who outranks the 
Federal Coordinating Officer. My job representing Governor 
Crist is to go into a unified command with the person that 
represents the President and the Federal response plan or the 
national response plan, which just----
    Ms. Norton. And who would that be in your case?
    Mr. Fugate. Under the Stafford Act and under statutes, the 
authority is vested in the Federal Coordinating Officer. Yet, I 
will have a Principal Federal Official assigned to us who will 
be, again, as we understand it, providing information back to 
the Secretary of Homeland Security and providing coordination 
between the Federal agencies. So either the FCO has authority--
--
    Ms. Norton. How is coordination with the Federal agencies 
done before
    Mr. Fugate. Through the Federal Coordinating Officer. And 
it wasn't so much that the Federal Coordinating Officer was in 
negotiation with other Federal agencies. The Federal 
Coordinating Officer in a declared disaster, ideally responding 
to a governor's request for assistance, had directive authority 
to other Federal agencies. It was a tasking ability to get 
Federal resources quickly to save lives, property, and mitigate 
the impacts of a disaster.
    Ms. Norton. Well, the allegation is that this is Homeland 
Security's way of keeping in the game.
    Mr. Fugate. Madam Chairman, I cannot go into the intent or 
what----
    Ms. Norton. I want to know what the effect is.
    Mr. Fugate. But I can tell you that when a Principal 
Federal Official is assigned to Florida, I immediately ask that 
they be made the Federal Coordinating Officer. It makes no 
sense to have a Federal Coordinating Officer who then has a PFO 
over them and a reporting relationship between the governor of 
the State of Florida----
    Ms. Norton. You think the both of those would be reporting 
to FEMA, in effect? Or do you think it stops with FEMA or the 
Principal Federal Official goes somewhere else, like to 
Department of Homeland Security?
    Mr. Fugate. Madam Chair, my understanding is the Principal 
Federal Official does part of the reporting back to the 
Secretary of Homeland Security. We have only asked that those 
two positions, if they are applied in Florida, be combined so 
that, for Governor Crist, he is dealing with the President's 
representative, not two different people.
    Ms. Norton. I tell you one thing. If the whole point in a 
deficit-ridden budget, is efficiency and saving funds, I can't 
imagine that this would be the Administration that wants to add 
to the bureaucracy. This is a matter of efficiency that I think 
should be brought to the attention of the appropriators and of 
our Committee.
    You see no separate function once a disaster has occurred? 
Do any of you see a separate function?
    Mr. Selves. No.
    Mr. Witt. No, ma'am.
    Ms. Norton. Have you seen them in action? How do they 
operate; they are both there?
    Mr. Fugate. Madam Chair----
    Ms. Norton. Mr. Selves raised this point too. Yes.
    Mr. Selves. I think the important point that our members 
who have been affected by this see--and obviously the State 
government is more involved in this process than we are, but 
our members are talking about the effects, and the effects are 
a degree of confusion. In any particular situation, especially 
a chaotic situation like a disaster, you want to have clear 
guidance and clear understanding of what your major partner, 
the Federal Government, is going to do.
    What our members are reporting is that, in Hurricane 
Katrina and other situations, the existence of a Principal 
Federal Official and a Federal Coordinating Officer, which is 
what we have traditionally dealt with, is very confusing 
because you don't know--unless, as Craig has suggested, you 
have one person be the same two functions, you don't really 
trust and know whether or not you are going to have that the 
decisions that are made, and that you have to act on as a State 
or local official, are going to be supported once it gets back 
to Washington. I think that is the main concern that most 
people have with this dual positions; not so much that there 
are two of them, but that they create a confusion as to exactly 
who should we listen to as far as what we can and can't do.
    Ms. Norton. That sounds like a disaster in the making. 
Suppose they disagree? Nobody is trying to cut the Department 
of Homeland Security out; okay, they are in FEMA. But it does 
seem to me that that is what the head of FEMA is for, is to 
keep the Department of Homeland Security informed. And if he 
wants to have special assistants and the rest that he learns 
stuff from. How many of these Principal Federal Officials do we 
have? Committee will find out. If trying to use money where it 
is needed, then I would be very concerned about that.
    Leaving aside the Principal Federal Official, do you think 
that, given what you know about pre-Katrina, do you think that 
the agency will be able to function adequately within the 
Department of Homeland Security? Whichever of you wishes to 
step up to that one.
    Mr. Witt. Madam Chairman, I have always advocated that FEMA 
needed to be independent and outside the Homeland Security.
    Ms. Norton. But that is where we are now, so I need to know 
what are the--you know what the chain of command is. You have 
already told us one way to improve it: not have these two 
officers who overlap with one another. I am interested in 
knowing, given that this is where we are, what do you think is 
the effect and are there things we can do, given the present 
structure, to make sure that that is as flexible and nimble as 
the agency needs to be.
    Mr. Witt. Let me just add I think the changes you have made 
is a step forward. It is how those changes are implemented and 
carried out is whether or not the agency will move forward to 
be better prepared and be able to respond in support of State 
and local government. One of the biggest problems that I would 
suggest, Madam Chairman, that the Committee look at is not only 
the decision process in the declaration as well as the response 
to a hazard or an event, it is the decision process that is 
made in the recovery of that event, and what chain of command 
in and who has the authority to do it, because I can tell you 
it is really, really difficult at different times in getting 
decisions made in a timely way to be able to not only reimburse 
local governments in recovery efforts, but to move it forward 
much faster than it is in today's process.
    Mr. Fugate. Madam Chair, from the State of Florida's 
perspective, FEMA is already part of DHS. I think moving FEMA 
again isn't really getting to the bottom line. I think the 
bottom line is to continue oversight of the Katrina Reform Act. 
I think we lose more by trying to move it once again, as much 
as to continue the oversight and go with the basic principal 
that was established with the late Governor Chiles, Governor 
Bush, and now with Governor Crist, that in a disaster they have 
to have the person they trust managing their team that is 
working all those resources on behalf of the people that we 
represent.
    I think that is the important relationship. The FEMA 
Director must have clear and unabridged access to the President 
and must be seen as the President's principal in dealing with 
and managing a disaster on behalf of the Federal Government. If 
they are seen as subordinate to the Secretary of Homeland 
Security during a disaster, that gives other departments the 
ability to negotiate with the Secretary for those things that 
they wish not to do at the direction of FEMA. And in a disaster 
the President needs one captain, one coach, one leader, not a 
Committee vetoing each other's decisions when issues are being 
raised and governors need answers and citizens need help.
    Ms. Norton. I would like all of you to comment on something 
in Mr. Witt's testimony. Normally, everybody talks about one-
stop shopping, but he uses another word: one-stop grants 
shopping for State and local governments. And you state, Mr. 
Witt, that it doesn't allow the Country to prepare effectively 
for natural hazards or terrorism. Could you elaborate? Then 
perhaps Mr. Selves and Mr. Fugate would comment on that idea.
    Mr. Witt. I think when it was shifted over through the 
grant programs into the Department of Homeland Security, I 
think it was problematic for them. What is a one-stop shop 
grant program? What does that cover? I think the primary focus 
of it as a one-stop grant program under Homeland Security was 
it was leaning towards terrorism, not an all hazard approach in 
grants. I think that the grant program being shifted back to 
FEMA will add some value, and I think, as you look at it and as 
it evolves, I think it will improve.
    Ms. Norton. Mr. Selves?
    Mr. Selves. Yes. When this occurred, I think a lot of us in 
our community were in favor. In fact, we probably were 
complaining about the number of different stovepipe grant 
programs that were out there. How do you go about identifying 
where those programs are, who has them? How do you go about 
applying for them? So I think a lot of us in the community 
said, you know, we really wish that you would have one place 
within DHS where we can go and get whatever applicable grant 
for our community.
    I think the law of unintended consequences came into play 
here and what we got was a mind-set that we have to make all of 
these grants, in terms of policy, the same, and that was not 
what we were asking for. What we were asking for was one 
central administrative agency that we could go to and say, 
okay, if we need grants for emergency management performance 
type activities, we go here; if we need money for chem bio 
equipment, we go to the same place, rather than the stovepipe 
systems that we had before.
    What we did not advocate, and do not advocate, is that all 
these grant programs now become similar in terms of what they 
are trying to achieve and so on, and I think maybe that is what 
Director Witt was referring to when he said that the impetus 
seems to be on making all of these terrorism-related because 
they were in DHS GNT and are now in FEMA. Hopefully, when they 
get back under FEMA, the folks in FEMA understand the purposes 
of a number of these grants, particularly EMPG, and understand 
that it is an all hazard grant, and has to be; otherwise, it is 
basically there to provide the people power necessary to do all 
the coordination, all of the answers to all of the questions at 
the local level and the State level that you have been asking 
today. That is what the emergency managers are there for.
    We originally had some issues because DHS says, well, you 
can't use this for personnel. Well, that is like asking the 
chef to make a hamburger, but don't give him any meat. You 
know, you have got to have people that make this happen, and 
that is one of the issues that we had with what has occurred 
with respect to the grants; not that they are administered in 
one place, but that there seemed to be some impetus to put them 
together in kind of a vanilla type situation.
    Mr. Fugate. Madam Chair, the rule of unintended 
consequences applied here. We thought, by bringing the grants 
into one shop, we would tear down the silos, break down the 
walls, and began to use those grants more systemically to solve 
problems than each program. The unintended consequence of 
that--and I don't think this is an evil intent, I just think it 
is a natural nature within the bureaucracy--was since you had 
brought in Justice and those programs from there, they tried to 
move those grants in to fit in the programs that they were used 
to administering, they were comfortable with, they had the 
tools developed to assess and audit. Unfortunately, the other 
programs were never designed that way, so they didn't fit and 
there was a lot of frustration.
    I think that, yes, one-stop shops are good as long as you 
understand that you need different tools and different measures 
for the different grants, because Congress has intended 
different things to happen with those monies.
    But here is my question. How many times do we have to audit 
the program? We haven't basically operated under a single audit 
act, but I find that the variety of grants--I get asked the 
same questions by different staffers, generally during spring 
and winter months in Florida, on programs that are very 
commonly related and oftentimes share the same results. Yet, 
because it was funded out of this pocket or this pocket, those 
folks come down and do the same audits and over and over and 
over again. We follow a single audit act. We follow the law. 
Yet, we get audited over and over again.
    Ms. Norton. Were they trying to find out whether you were 
using for terrorism or for some other purpose, is that it?
    Mr. Fugate. Ma'am, they are asking us and going back 
through the way they designed those grants, trying to look at 
performance. They are trying to answer questions Congress has 
asked. They are trying to answer questions the Administration 
has asked. It just seems that if we were trying to make the 
commonality elements in a one-stop shop work, we could answer 
those questions once and not multiple times.
    In fact, I believe FEMA has actually commissioned a study 
of going out and assessing how many different programs are 
asking the same questions in different areas, trying to measure 
what we are doing. We have Accreditation, we have the Emergency 
Management Performance Grants, we have the Homeland Security 
Grants, we have the Urban Security Initiative Grants. Well, 
many of them overlap and the questions are the same, but you 
are asked differently because they are different pots of money.
    Ms. Norton. Now that Congress has at least now said, okay, 
what little bit of money FEMA has is going to be given out by 
FEMA, the tilt--it is a whole lot more than a tilt, and we 
heard the complaints, that we are too early in the Act to know 
whether it makes a different. The Committee feels very strongly 
that if we are talking about only 10 percent, the kind of 
soundings we get, that even now there are complaints about the 
terrorism tilt, that would be very disturbing.
    But bear this in mind: nobody would have funded emergency 
responders in the first place in these large amounts but for a 
terrorist event. So what you are having is a kind of mechanical 
distinction. People say all hazards and then they try to parse 
money as if, in fact, hazards occur as terrorist hazards, and 
that is all we fund because we are the Federal Government; you 
are supposed to fund the rest of those hazards. All hazards 
occur as natural disasters. And I don't know if the Government 
will ever learn, but we are trying to learn from this last 
iteration of the Stafford Act.
    I have a question for Mr. Fugate from Mr. Mica, who asked 
that I ask how do we ensure the Federal response to a 
catastrophic disaster is proactive enough to meet the need but 
does not overstep the State's authority?
    Mr. Fugate. Madam Chair, you build a team. We have to 
recognize that there are two directions I see us going in: one 
is trying to beef up on the Federal side, FEMA and the Federal 
apparatus. Without recognizing without strong State and local 
emergency management programs, that system is too expensive and 
will fail. The way we do it is local government, State 
government, Federal Government have to work as partners, as one 
team. That means when the Federal Coordinating Officer is 
appointed, we go into a unified command meeting; I sit with 
them and we make decisions jointly. It isn't a State mission; 
it is not a Federal mission; it is the team's mission to meet 
those needs, and we have resources on both sides.
    But in a catastrophic disaster, I have often heard this 
term, Madam Chair, I want to define catastrophic disaster 
because I am tired of the media defining it for me. I look at a 
catastrophic disaster as this: when the State of Florida loses 
its constitutional ability to carry out its mandate to its 
citizens, then it is catastrophic and the President needs to 
step in.
    But until such time as the governor of the State of Florida 
cannot carry out or is unwilling to carry out their 
constitutional responsibility to protect the civil rights of 
their citizens, the Federal Government is our partner, not our 
boss, and they come in to support the governor and his team, 
which is local and working with all local governments to meet 
those challenges. It becomes the skill of disaster.
    But we do recognize that with the threat of terrorism there 
may be that unthinkable event that results in the State 
government being the casualty and there not being a governor or 
not being able to carry out their constitutional mandate to 
meet the basic civil rights that our citizens demand, and that 
is when it is appropriate for the Federal Government to take 
the lead role until State government can be reconstituted. That 
is the history of our Country through civil rights, through 
war, and through disasters. So we think a catastrophic 
disaster, in our definition, is when we fail and our governor 
is not able to carry out, because of death or injury, their 
constitutional responsibilities; otherwise,----
    Ms. Norton. Well, that certainly would not be most of the 
time.
    Mr. Fugate. That is it.
    Ms. Norton. It is interesting that you say that. It is 
interesting Mr. Mica thought he had to ask that question 
because one had the authority that you always hear the Federal 
Government say they defer to the States and, of course, they 
don't know what is happening on the ground nearly as much as 
the States would, so it is interesting if you say in non-
catastrophic disasters you still have a problem of the Federal 
Government wanting to take the lead.
    Mr. Fugate. Madam Chair, you pass the law as a body--I hope 
you agree with it--that places the National Guard under the 
President in a natural disaster, but doesn't take the authority 
of the governor to manage the disaster away from the governor. 
You just take his National Guard and federalize them. That is 
an option the President has. That is really troublesome, that 
we have seen all that type of legislation come out, thinking we 
learned the lessons of Katrina.
    If the local governments and State governments are going to 
truly be the front line, we need to support and fund them. But 
every time we come in at the Federal level and we assume more 
responsibility for their responsibilities, we develop 
capabilities and respond without really putting some onus on 
them to do it, you literally force State governments to make 
decisions about funding. Well, if the Federal Government is 
going to do it, why should we fund it? If the Federal 
Government is going to show up and do everything for us, why 
should we do it?
    Ms. Norton. Well, let me ask you this. Does the fact that, 
for example, after a declaration, Federal funds begin to flow 
mean that the Federal Government feels it has got to take more 
responsibility because Federal funds are involved?
    Mr. Fugate. Director Witt?
    Mr. Witt. Let me just say this. FEMA's role and 
responsibility was to work with the States in making sure that 
they could provide the resources to the States that the States 
asked for, not to go in and take over a disaster. We were there 
in support of the States and----
    Ms. Norton. Do you really think FEMA has been taking 
control of disasters, taking over disasters in the States? Did 
that happen in the tornadoes? Something happened, because Mr. 
Mica asked me to ask this question about make sure it does not 
step over the State's authority.
    Mr. Witt. And you shouldn't. The Federal Government is 
there as a resource to State government.
    Ms. Norton. Is this a common complaint?
    Mr. Witt? What now?
    Mr. Witt. Is this a common complaint, that when there is a 
declaration, that the Federal Government does not operate as a 
team, FEMA and the rest do not operate as a team, but seem to 
want to take over the handling of the disaster? Mr. Selves?
    Mr. Selves. I am not sure I would characterize it as 
wanting to take over after a disaster. Over the last few years, 
I think those of us at the local level have seen FEMA and the 
Federal partnership that has been talked about here becoming 
more remote. There is less of a person-to-person interaction so 
that we are working with people we know and trust and who 
understand those boundaries that we have just been talking 
about.
    I think one of the problems that occurs when we emphasize 
catastrophic disasters as we have is that in addition to what 
has already been said, there is also a tendency to look at the 
funding formulas and the emphasis on funding. If the Federal 
Government is expected to come in and play a major role because 
the local officials, or the State officials in some cases, 
can't do the job, then, naturally, that funding is going to 
look to provide a Federal capability instead of a State and 
local one.
    This is a vicious cycle, because if you give us less money 
and give us less authority and so on and so forth, then the 
attitude is going to be, well, you know, they are really 
incapable of doing the job, so we have got to do it for them, 
and pretty soon you will come to a Federal allocation or 
appropriation that is going to stagger you because the Federal 
Government cannot do it; it has to be a partnership.
    And I think that is, over the last few years, what we have 
found to be the issue, is the remoteness of the Federal 
Government, the lack of knowledge of who those folks are, and 
the respect of the boundaries that might take place, maybe not 
out of any malintent, but because of a misunderstanding or a 
feeling that, well, if we don't get in there and do something, 
right or wrong, then we are going to be criticized for it, so 
we have got to be much more aggressive with the States and 
locals.
    Ms. Norton. I will ask one last question, because we want 
to get on to the next panel, that the Ranking Member, Mr. 
Graves has asked me to ask of you because you both are from 
Kansas City. In your written testimony you mention the 
potential impacts on Kansas City from an earthquake on the new 
Madrid Fault. Could you describe what you might face in Kansas 
City and what Congress should be doing to help Kansas City 
prepare?
    Mr. Selves. Thank you. Yes, I belong to an organization 
within the Kansas City metropolitan area. I represent the 
southwest suburbs of the Kansas City Metro area on the Kansas 
side. We have about a half a million folks, 20 cities in my 
county. But we work with all of the 8 counties in the Kansas 
City Metro and their emergency managers, and over the last few 
months, especially, we have been asked by the Federal 
Government to prepare catastrophic plans for catastrophic 
events.
    Well, if you look at Kansas City, we don't have hazards 
that are very likely to create a catastrophic event. What we do 
have come to the conclusion is that if there is a catastrophic 
event on the new Madrid Fault, that the City of St. Louis will 
be rendered pretty much in the same situation or worse as the 
City of New Orleans was during Katrina, and we look at our 
major responsibility in a catastrophe to act as the Houston to 
St. Louis's New Orleans, and that is something that we have 
just come to realize and begun to look at our ability to 
provide mass care, our ability to house and to take care of.
    And I think that that brings up a point that I would like 
this Committee and others to consider, and that is the support 
and the programs that are available to communities and States 
who are required to serve as the receivers of evacuees from 
disaster areas. We saw tremendous burdens placed on areas in 
Northern Louisiana and certainly in the City of Houston and 
various other places around the Country, and those folks were 
willing to step up and do that job, but there didn't seem to be 
a lot of good policy and good procedures in place to help those 
communities out that reached out and helped those evacuees. So 
that is something we are concerned about in our area.
    Ms. Norton. Well, we will make sure that Mr. Graves hears 
that response, because if ever there was an afterthought, it 
was about the receiving areas, and they still are coming back. 
And every time we do something, for example, for the Louisiana 
area, we have to do something for those other areas as well. 
But, again, I am not sure the statute makes that clear enough, 
and I am asking staff to look and see whether or not--we should 
not be doing that on an ad hoc basis, and if they need to be 
prepared to receive people, then that too ought to be a part of 
the homeland security mission.
    Mr. Selves. You can tell the Ranking Member that we will be 
happy to send some of those folks up to St. Joseph as well.
    Ms. Norton. Mr. Witt, you wanted to comment on that matter?
    Mr. Witt. No, I think Mike did a good job.
    I would like to make a statement, if it is appropriate, 
before we leave.
    Ms. Norton. Please do.
    Mr. Witt. You know, the eight years I was at FEMA we had 
the opportunity to reorganize and refocus the agency into a 
more responsive plan and preparedness, and we focused on 
mitigation and prevention, and I would encourage you to keep 
the mitigation side of funding to States and local governments 
to mitigate the risks in these States' cities and counties. It 
is so important.
    Also, let me just say I think Director Paulison is a very 
good man. I have known him for a long time; I worked with him 
over the years when he was fire chief in Miami Dade and 
director of emergency management. I think if this Committee 
will empower him and support him to make those changes 
necessary, I think you will see an agency come back strong.
    Ms. Norton. Well, I know he will be glad to have that seal 
of approval from you.
    Mr. Witt. Let me just say----
    Ms. Norton. We know that he had emergency management 
experience, and that is why he has our confidence. We want to 
make sure the GAO report that, down the line, we have got 
people with emergency management experience, because you saw 
what happened when the top of the agency didn't have it, then 
it turns out that below the agency you had the same problem. 
They are bringing many people in, and the Chairman and I have 
asked for a GAO audit right now, before we get locked in with 
people who may not have the necessary experience. It was a shot 
across our bow when another agency in the Department of 
Homeland Security, the Federal Protective Service, takes on 
somebody who was rated most qualified who had indeed had deep 
police experience and he did not get the job. So that is all I 
need to know to know that we have to take a look.
    Mr. Chairman, I have already indicated that you and I will 
be asking for a GAO report to audit personnel selections in the 
agency, and I have already said that we will ask the Chair and 
the Ranking Members of the Full Committee and of our 
Subcommittee to join us in asking for that report. And I am 
very pleased you were able to come. I know how busy the 
Chairman is. He had told me personally that I am going to come 
to that hearing. This is how important he believed this hearing 
to be, and I am happy to welcome a man that all of you know, 
because anyone who knows anything about this field knows Jim 
Oberstar, the Chairman of the Full Committee.
    Mr. Oberstar. Thank you, Madam Chair. You are doing 
wonderfully on your own. I appreciate that, but I do have so 
many requests from our colleagues to participate with 
delegations coming from their districts here, so I regret I was 
not able to be here at the outset.
    While it is delightful and important for us, beneficial to 
have the former Director of FEMA, I am disappointed we don't 
have the current Director. He felt it more important to be at 
an embassy briefing than to be at a Committee hearing, and that 
is unacceptable.
    I listened with great interest to the discussion that 
unfolded. I read the testimony from all the participants at our 
hearing late last night, into the early hours. FEMA didn't 
start out to be FEMA, it started out as Civil Defense.
    I think I just need to create a little historical context, 
not for the edification of the participants at the witness 
table, but for the historical record of the Committee.
    Over time, as we moved away from fear of nuclear holocaust 
and stocked up our cellars with provisions, water and cans of 
food, and learned how to dig a hole in the backyard and pull 
the door over the top of our little shelter, events were 
happening, tornadoes, snowstorms in the northern tier, 
hurricanes in the southern coastal region, and folks said we 
need help, and they turned to the Civil Defense directors 
respectively across the Country, because they had the sense of 
organization, a response plan, a departure plan from the cities 
in case of tragedy; they had the organizational ability, they 
had the communications equipment.
    And as more demands were made upon the Civil Defense, there 
were more needs, and there were also more requests from States 
to the Federal Government to provide financial help, and in 
various cases support from the National Guard. Disaster 
declarations by the President were few in number up into the 
1970s.
    But then, if you look back at the history, we began to see 
the rise of cost and frequency of natural disasters and 
increasing pressure on the Civil Defense organizations who were 
evolving into an all hazards response organization. Then came 
the Reagan Administration and they took a look at the funding 
and the response, and the president submitted, in 1987, a 
budget which totally turned on its head the Federal-State-local 
participation formula that you were talking about earlier with 
the distinguished Chair.
    In most cases there would be no Federal support under this 
Reagan Administration plan; in some cases there would be 75 
local, 25 Federal. And it was a Member of Congress from 
Pennsylvania, Republican, who came to me as Chair of the 
Investigations and Oversight Subcommittee and my counterpart, 
Ranking Republican Member Mr. Klinger of Pennsylvania and said 
this is terrible; we have just had a tragedy in Pennsylvania. 
We couldn't afford all the costs ourselves. This new policy 
will bankrupt towns and counties and townships, and we would 
like you to have a hearing on the subject matter. He was even 
proposing that we have legislative initiative to address the 
problem. So we had the hearing.
    They brought in the Civil Defense directors from all over 
the Country. We found that there was unanimous objection to 
this new policy, pointing out that these massive storms cover 
multi-counties, multi-States. They are national in interest and 
in effect, and we established quite a hearing record. Out of 
this developed legislation that created the structure for what 
became FEMA.
    And I gave the legislative draft to the Member from 
Pennsylvania, I said, you introduce the bill and we will have 
the legislative Committee hold hearings on it and we will move 
this bill through. He was surprised, because that doesn't 
happen when you are in the minority, that the majority gives 
you a bill and says, here, you go and manage it, handle it. I 
said, no, you have done the right thing. You had the courage to 
stand up against your own administration on a matter that has 
now taken on national significance.
    So he introduced the bill, I co-sponsored it, Mr. Klinger 
co-sponsored it. The bill passed the House, the Senate, 
eventually was signed into law under--wrapped it into something 
else because, of course, that White House was not going to sign 
such a bill. We wrapped it into another omnibus bill and it 
became law.
    That Member was Tom Ridge, later the first Secretary of 
Homeland Security. I will never forget, after he was appointed, 
he came up to see me, he said, it all started with you. But it 
started with good public policy and, Mr. Witt, you extended 
that good public policy. I think the apogee of FEMA's service 
to the Country. I know Mr. Shuster, our former Chairman of the 
Committee, would concur in this judgement of the apogee of 
service of FEMA was under your distinguished leadership. You 
developed a pre-disaster mitigation program.
    Now we have seen this thing sort of coming full circle, and 
when the Administration proposed the development of the 
Homeland Security Department, both then Chairman Young and I 
opposed inclusion of FEMA and Coast Guard in this Department. 
We opposed it at the White House in a meeting with the 
President; we opposed it at the hearing of the Committee to 
create Homeland Security; and on the House floor I offered an 
amendment to delete FEMA from the Homeland Security Department.
    I said in my closing argument for my amendment, imagine the 
scenario, the flood waters are creeping up to the eaves of your 
house; you are standing on the roof with your cell phone and a 
white handkerchief, trying to call FEMA and you get the 
Department of Homeland Security and they tell you, well, they 
are out looking for terrorists. That is what you are going to 
see if you do this. That is what will happen with this 
Department, it will be absorbed with this agency, it will be 
absorbed into this new Department. And the staff will be 
syphoned off and the money which is fungible will be dispersed 
to other parts of this grass department.
    Well, it was hardly a year and a half later that Katrina 
struck and how many images are engraved in our minds of people 
standing on their rooftops, waving white handkerchiefs and on 
their cell phones? Now, I was not a Nostradamus predicting the 
future, but just my own years of experience around the Capitol 
and in government know that when you create something this big, 
that is what is going to happen. And it did happen, tragically.
    So now the Department has come up with a new plan to 
recreate what they in effect destroyed, and, in fact, what I 
predicted did happen. Staff were syphoned off; half of them 
were bled from FEMA and shipped elsewhere, or the really 
dedicated professionals left. The funding for FEMA was 
dispersed around the Department. Now we are trying to reclaim 
it. The result was well experienced managers left or were 
redistributed; morale sank; well-intentioned, unexperienced 
people came in; and we need not repeat all the horror show of 
post-Katrina.
    Now I have confidence in Administrator Paulison; 
disappointed that he is not here today. He should have been 
here. He can go to an embassy event any other time of the week. 
This is a Committee of the Congress. And also in Michael 
Jackson, the Deputy Secretary who has certainly made his mark 
as an effective government manager. Now they are putting 
together a new program or a new management structure for FEMA, 
but we need to have assurance that personnel have experience in 
disaster preparedness, planning, and response.
    This is not a throw-away job. This is critically important 
work. We also have to have some structure that separates the 
terrorism response, the terrorism preparedness and planning and 
all the rest of that, which is less than 2 percent of the work 
of FEMA, from its response to natural disasters. As the then 
Chairman Don Young said many times over the last five years, 
four years since the Department was created, the biggest terror 
is a hurricane. The biggest terror is a tornado. They strike 
regularly. We need to be prepared more efficiency and more 
effectively and more currently against those disasters.
    What I see, among many other concerns, is that fire grants, 
the administration of which, under your leadership, Mr. Witt, 
was highly professionalized. Now those fire grants are being 
shifted away from small communities into urban areas. Those 
little fire departments, those rural fire departments in my 
area--I am sure they are in Florida; I am sure they are in 
other areas of the Country--they are the first line of 
response.
    Breathing apparatus, protective clothing, new gear, 
occasionally a new fire truck means all the world in the 
response to a fire in a rural area where, if you don't have the 
right equipment, the home can be gone, the summer recreation 
lakeside home can be just gone, vaporized in a very short time. 
Or, as we are seeing with methamphetamine, where fire 
departments are called upon to respond to a fire, they have 
never seen these toxic fumes before; green, orange, yellow, 
black, acrid. They need breathing apparatus to respond to this. 
This is every bit at serious as a terrorist attack.
    First of all, I would like to ask Mr. Fugate, you have had 
more than your share of experience with disaster in Florida 
from natural events, whether you have taken a look at this new 
management plan for FEMA, whether the steps taken to 
reestablish pre-disaster mitigation, whether the efforts at all 
hazards approach give you some confidence about the future of 
this agency.
    Mr. Fugate. Mr. Chairman, I started out as a volunteer fire 
department firefighter, just like you talked about, the rural 
departments. That is where I came from. I was actually a 
responder before I got into emergency management. I look at 
three rules in a disaster or an emergency: you meet the needs 
of your victims; you take care of your responders; and the 
third rule is to see the first rule.
    So with the management plan, the changes, and everything 
they are doing, yes, I think they are going in the right 
direction. But I think it is going to take continual oversight 
of the people's representatives to make sure that that 
direction doesn't change. The problem you are going to always 
have with FEMA as part of a big organization is when the other 
competing needs are expressed without funding, they are going 
to look within the organization to shift priorities and 
resources.
    That is just the nature of how, as managers, we try to deal 
with increasing demands and increasing issues. So that is where 
I think FEMA, initially, going into Homeland Security, was in 
such a bad position, was that the Department of Homeland 
Security looked to FEMA because they had funds, they had 
personnel, and in meeting other challenges they stole from 
Peter to pay Paul, hoping that the system would no break, and 
it did.
    So that will be the continual responsibility that you and 
your members have, sir, is to make sure that that oversight 
continues. These are the important steps. But I can tell you 
that as much as Dave Paulison has my support and respect, Dave 
cannot fix everything before hurricane season. He probably 
won't have everything fixed at the end of his term. But he has 
got to lay the groundwork, get the people hired, get them 
trained, move the program.
    It is going to take time to rebuild FEMA and to make it 
stronger and better, and it will never be completed because 
hopefully it will always be a work in progress to continue to 
improve so its role of supporting State and local governments 
never ends. But the groundwork has got to be laid, the 
foundation has to be built. We think that is happening, but it 
is very fragile at this point. As you pointed out, we ran this 
cycle before, and without the oversight of Congress, that will 
occur again.
    I think your advantage, sir, is previously you were often 
fighting these battles and not really have the rest of the 
Congress understand how this was a national issue, not a State 
and local issue. I think Katrina has shown us that natural 
disasters, manmade and terrorism, can impact the entire 
Country, even when we are not hit by that disaster.
    Mr. Oberstar. Thank you very much. That is a very sound, 
very wise, balanced, thoughtful approach.
    Mr. Witt, I would like to have your observations.
    Mr. Witt. I agree totally with Craig, Mr. Oberstar. I think 
that, first of all, I think it was the right move to put 
preparedness training and exercise the grant program back under 
FEMA. I also think it is important that the Director of FEMA is 
reporting directly to the President when there is a Federal 
disaster declaration.
    I think that decision process from the State level, with 
the State director and the State, from the Federal Coordinating 
Officer to the Director of FEMA and to the President is 
absolutely critical, because information flow in data, flow 
back in with situation reports helps people to make good 
decisions faster. You cannot have a line of bureaucracy of 
reporting systems which you know very well that will expedite 
the process and the resources.
    So I agree, I think it is going to take some time to do 
this. I think that it is going to take some time to get to the 
moral of the agency back to the level that it needs to be, like 
it used to be. They took pride in what they did and worked some 
extremely hard, long days. So I think it is evolving, and I 
think with your oversight and your support and your guidance, 
then I think it can evolve to a premier agency in the Federal 
Government.
    Mr. Oberstar. I assure you the oversight will continue. We 
have just begun.
    Mr. Selves, do you have an observation?
    Mr. Selves. Well, for seven years, before I took this 
particular job with Johnson County, I worked for the State of 
Kansas Emergency Management Division, and one of my 
responsibilities, my major responsibility was to go out and to 
try to help the counties in the State of Kansas who are 
responsible for emergency management to create better, more 
effective programs, and I was frequently called before county 
commissioners who asked me, well, we don't really have the 
money to have a full-time emergency manager in this county, but 
could we make the public works director or the sheriff or 
somebody else do that job?
    I would tell them, you know, it is up to you; you have the 
authority to put the position wherever you want it, but if you 
don't make it a separate agency reporting directly to you in 
times of disaster, you are going to have significant problems. 
I said, you can put it wherever you want, but if you choose to 
make it something other than a direct report to you, you need 
to make sure that you have that relationship with that 
individual, wherever they might work, that in time of disaster, 
they are there to support you in the overall response, a 
comprehensive response to this disaster. They can't be a deputy 
out working traffic or saving lives; they have got to be 
somewhere there who can work with you and coordinate things.
    So I think the situation is similar here. The decision has 
been made to put FEMA in the Department of Homeland Security. 
That is a decision that Congress made and the President asked 
for, but you have to be very careful. You have to make sure 
that it works, that the relationships are there and that the 
advice is provided when it needs to be provided directly to the 
person responsible.
    Mr. Oberstar. Right on.
    Mr. Witt?
    Mr. Witt. Mr. Chairman, let me also, on the fire grant 
program. We had a huge wildfire in Montana. Senator Backus and 
we went up, we did a fire declaration, and we went out with 
Governor Roscoe, we went out on the fire line, and this is how 
important those fire grants are you that mentioned. We went out 
on the fire line and we had an instant command post set up, and 
here were the volunteer firefighters responding with the U.S. 
Forest Service that none of them had turnout gear. They were in 
their blue jeans and boots.
    Another example how important this is, our son, in our 
hometown of Darnell, Arkansas, is a volunteer firefighter and a 
banker. I said, well, what are you all going to need this year? 
He said, we don't have any turnout suits. This was two years 
ago. So we bought him a turnout suit and his department. So 
these fire grants are really important because they support 
emergency management as a resource and they are the fire line.
    Mr. Oberstar. Thank you very much. My staff representative 
for the northern tier of my district, Peter Makowski, is a 
volunteer firefighter. Not only that, he has his own fire 
truck. I mean, he is really into this. He bought a surplus fire 
truck that some department in southern Minnesota was selling. 
He goes out on those and he knows first-hand what the equipment 
is needed, the breathing apparatus that is required, the 
protective gear that is needed, and the latest technology.
    Crime is moving out from urban areas to rural areas, and we 
have a lot of hunting shacks in northern Minnesota. You 
probably have got those all around Arkansas., where they are 
just sitting there much of the year, and someone passing by in 
January sees one of those shacks, there is no snow on the roof. 
Oh, oh, someone is in there cooking meth. What is going on? 
Pretty soon there is going to be a fire, and who has to 
respond?
    And what has FEMA and Homeland Security been doing for the 
last couple of years? Creeping along. I heard this from the 
Fire Chiefs Association of Minnesota. They are telling us you 
submit your fire grant application, you have to show a 
connection with terrorism. Well, the terror is the fire. The 
terror is the meth lab. The terror is the tornado. The straight 
line winds at 100 miles an hour blew down 26 million trees in 
northern Minnesota. That is the terror. We have got to be 
prepared against that.
    I am just grateful to you. Thank you. I don't want to 
prolong this. There are other witnesses waiting to be heard. We 
need to hear from them.
    Madam Chair, thank you very much. Thank you for also 
including the questions of the minority who unfortunately were 
not able to be here this afternoon.
    Ms. Norton. Mr. Chairman, you never prolong; you only 
educate. We all sit and listen to a man who knows more about--
you have never seen anything like it. Whatever Subcommittee it 
was, you are astounded to hear. You understand the Chairman has 
sat through all these things. The question you have to ask 
yourself is what kind of brain does he have that has actually 
absorbed all these things.
    Thank you very much for coming, Mr. Chairman.
    And I want to thank you very much. I want to say to this 
panel I have learned something. This is what hearings do for 
me, not tell me what I already know. When I learn from you, it 
gives me ideas about what to do. Vast and deeply informed 
experience. I very much appreciate your waiting through the 
last panel and waiting so long for us during the vote. Thank 
you again for coming.
    I am going to call up the next set of witnesses. And I 
certainly have to thank the next set of witnesses, because they 
have been most patient, and I certainly appreciate their 
indulgence. The fact that they are coming last says nothing 
about their importance; it says something about the protocol of 
the Congress, and the protocol, of course, is you start with 
the agency head and you hope, frankly, that from their 
testimony you will gather questions beyond those that have 
already occurred to you to ask the people that are on the job 
and on the ground, and I have to tell you that we certainly 
have some of those questions.
    We want to proceed quite quickly so as not to detain you 
much longer, and to ask that you summarize your testimony, if 
at all possible, because we will look more deeply at it.
    I want to thank Mr. Chuck Canterbury in particular, who is 
the President of the Fraternal Order of Police, because we just 
called him as a witness just, I think it was, last week, and I 
so appreciate your coming again; Chief Tom Carr, Montgomery 
County, Maryland, Fire Rescue Service, our neighbors here and 
part of the National Capital area response; Chief Fred 
Endrikat, Special Operations Chief, City of Philadelphia; and 
Sheriff Edmund ``Ted'' Sexton, Sr., of the National Sheriffs' 
Association.
    I will leave it up to you as to in which order you would 
like to proceed. Please summarize your testimony and proceed 
whoever thinks he wants to step up first.
    Yes, Mr. Canterbury. See, he has been here before, that is 
why he is stepping up this way.

 TESTIMONY OF CHUCK CANTERBURY, PRESIDENT, FRATERNAL ORDER OF 
   POLICE; CHIEF TOM CARR, MONTGOMERY COUNTY, MARYLAND, FIRE 
RESCUE SERVICE, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS; CHIEF 
 FRED ENDRIKAT, SPECIAL OPERATIONS CHIEF, CITY OF PHILADELPHIA 
FIRE DEPARTMENT, SPECIAL OPERATIONS COMMAND; SHERIFF EDMUND M. 
   ``TED'' SEXTON, SR., FORMER PRESIDENT, NATIONAL SHERIFFS' 
                          ASSOCIATION

    Mr. Canterbury. Thank you, Madam Chairman. I appreciate the 
opportunity. I am going to take a personal privilege. I would 
like to thank the Montgomery County officers for being here. 
They lost a first responder this morning, who died from an 
incident that occurred on the 25th, Officer Lou Kaufman of the 
Montgomery County Police was killed in the line of duty.
    Ms. Norton. We join you.
    Mr. Canterbury. Thank you.
    I am here today to represent the views of the Fraternal 
Order of Police, 325,000 rank and file officers, with respect 
to the challenges faced by DHS and FEMA, and the entire public 
safety community in responding to all hazard critical 
incidents.
    As you know, Madam Chairman, the FOP was initially very 
skeptical or charging FEMA with expanding authority over the 
law enforcement mission at DHS, and we believe that that 
response-oriented organization like FEMA would be ill suited to 
perform, oversee, and fund terrorism prevention activity. We 
were scared that there was something in that that just didn't 
fit in FEMA's traditional role.
    First of all, let me say that FEMA Administrator Paulison 
has been in contact with the FOP to discuss a number of the 
issues related to law enforcement's role within FEMA, and since 
that conversation FEMA senior staff has been engaging us in 
ongoing dialog, and we are very pleased with that. 
Administrator Paulison has created the position of a law 
enforcement advisor to the Administrator of FEMA and, of 
course, we hope that they will be able to fill that position 
very quickly. He has also included in his staff people from the 
law enforcement community who bring some expertise and know-how 
to FEMA which was not there previously.
    We believe that Mr. Paulison will help to integrate law 
enforcement into the structure of FEMA more appropriately. To 
do this, though, he is going to need to be tenacious and work 
hard to ensure that there is a greater respect and 
understanding for the extremely important work that we do in 
the instance of an attack or a disaster. We believe he 
understands this and he has our full support.
    As you know, FEMA has historically been a culturally 
reactive agency, and we understand that law enforcement cannot 
prevent hurricanes or tornadoes or floods. But we do know that 
we can and do, however, prevent terrorist incidents from 
occurring on our Nation's soil by preventing threatening goods 
or people from entering this Country.
    This is going to require a paradigm shift in the way FEMA 
works with law enforcement. It means that FEMA must work 
quickly and responsibly to fill the position of the Assistant 
Administrator for Grants Management and Operations. We are 
ready to support FEMA in this effort. We ask for the same 
respect and understanding be granted to the law enforcement 
community that we are granting FEMA in this ongoing process, 
and we look forward to working with this Committee, as well, in 
that, and we hope that with our written testimony, if there are 
any questions that we can answer from the rank and file law 
enforcement.
    We are very concerned with some of the changes recently at 
DHS. As you know, Madam Chairman, we testified on the reduction 
in force at Federal Protective Service, and in this time of 
disaster, today's USA Today newspaper this morning showed two 
Federal officers on the border in Texas doing recovery efforts 
in the tornados that occurred on the Texas border, and I 
thought it very apropos I was coming here today. Again, 
reaction of two Federal law enforcement officers that reacted 
with the first responders searching for victims of that 
tornado. So it does show a much more concerted effort than we 
had in the past.
    Thank you, Madam Chairman.
    Ms. Norton. Thank you very much, Mr. Canterbury. Appreciate 
that testimony.
    Chief Carr, do you want to go next?
    Mr. Carr. Thank you. Good afternoon, Madam Chairman. I am 
Tom Carr of the Montgomery County, Maryland Fire Rescue Service 
and one of nearly 13,000 members of the International 
Association of Fire Chiefs.
    The IAFC represents the leadership of America's fire, 
rescue, and emergency medical services, including rural 
volunteer fire departments, combination departments, and 
metropolitan career fire departments.
    The Committee has wisely entitled today's hearing FEMA's 
Preparedness for All Hazards. Last year, America's fire service 
responded to more than 23 million fire and emergency calls 
covering all hazards, including structure fires, emergency 
medical service incidents, hazmat incidents, and wildland 
fires. While most of the calls are local, the fire service has 
demonstrated its national role in disasters like Hurricane 
Katrina and the attacks of September 11th.
    When fire departments take on such a natural role, their 
lead partner within the Federal Government is FEMA. Since 9/11, 
much of the focus of the Department of Homeland Security has 
been on building terrorism response capabilities. While gaps 
still exist, these efforts have helped local fire and EMS 
providers become better prepared than ever before for chemical, 
biological, radiological, nuclear, and explosive incidents. The 
IAFC understands this focus on counter-terrorism as a natural 
reaction to September 11th; however, it is important to point 
out that the response to most incidents, whether natural or 
manmade, is strikingly similar. To a firefighter responding to 
a scene, a WMD attack is simply a hazmat incident with an 
attitude and requires many of the same basic equipment, 
tactics, and skills.
    The backdrop for today's hearing is so-called ``New FEMA,'' 
which is authorized by the fiscal year 2007 DHS Appropriations 
Act. IAFC supports this law and the direction FEMA has begun to 
take in implementing it. In particular, we believe that it is 
essential that FEMA's budget and mission be protected from 
constant DHS reorganizations.
    Additionally, we endorse the return of the U.S. Fire 
Administration and the Office of Grants and Training to FEMA. 
These transfers create an opportunity to link response planning 
with training programs and grant distribution in a very 
effective manner.
    Administrator Paulison, a former IAFC president and Miami-
Dade fire chief, also has made a number of changes to improve 
FEMA's logistics, disaster response expertise, and regional 
offices. We urge Subcommittee Members to continue to support 
FEMA's new direction by giving the agency time to complete its 
transformation plans and by supporting its programs through the 
appropriations process.
    Creation of a new FEMA, however, is far from the final step 
in making sure the United States is truly prepared for future 
disasters. Considerable work remains for the Administration, 
Congress, States, localities, and the Fire Service in terms of 
continuing to ensure that the Nation is able to respond 
effectively when the next major emergency occurs.
    As FEMA integrates the Office of Grants and Training into 
the post-Katrina structure, it must do a better job of 
understanding the basic fire and emergency service capabilities 
are essential not only for response to terrorism, but to other 
types of disasters as well. Creating an emphasis in grant 
programs on specialized equipment for CBRNE events may steer 
resources away from more fundamental areas of need. Over the 
long term, this approach could deprive local responders of 
tools necessary for an effective response to the next major 
natural disaster. Congress can play a constructive role by 
ensuring that FEMA administers programs such as the FIRE Act 
grants are well-funded and remain focused on the response to 
all hazards.
    In October 2006, a needs assessment by the NFPA and the 
Department of Homeland Security drives home the basic all 
hazards need that currently exists within the Fire Service. 
Nearly 60 percent of fire departments don't have enough SCBA, 
65 percent of the fire departments don't have enough portable 
radios, and it is on and on with basic equipment.
    The FIRE Act program currently goes a long way towards 
helping departments address these shortfalls. Likewise, the 
SAFER Act grant program aids departments in meeting important 
staffing needs, as identified in NFPA 1710.
    Though the Fire Administration has remained in Emmitsburg 
the entire time, the agency has moved around quite a bit in 
departmental organization charts over the past several years. 
Most recently, the USFA was transferred back into FEMA, after 
being removed just a year ago. As this transfer takes place, 
FEMA has several opportunities to strengthen the USFA and 
better prepare both the Federal Government and the Fire Service 
for future disasters.
    The USFA should continue to work to staff a desk at the 
National Operations Center. This development is important 
because it increases the ability of local fire chiefs and 
police to plan to comprehensively respond to future threats 
based on the same information. The USFA also needs to update 
the National Incident Fire Reporting System.
    Furthermore, the USFA needs strong leadership at the top. 
Though the U.S. Fire Administrator position remains an 
assistant secretary, it has not been filled with a permanent 
occupant for a extended period of time. The IAFC supports the 
nomination of Chief Craig Cade of Virginia Beach to serve as 
the U.S. Fire Administrator. Congress can aid in these efforts 
by providing $50 million to USFA in 2008. Last year, the USFA 
received $47 million, but the President's budget requests only 
$43 million for 2008.
    Thank you again for the opportunity to address this 
Committee. On behalf of America's fire chiefs and emergency 
medical service officers, I would like to thank Congress, and 
especially Members of this Committee, for your continued 
support.
    Ms. Norton. Thank you very much, Chief Carr.
    We want to go now to Chief Endrikat, City of Philadelphia 
Fire Department.
    Mr. Endrikat. Thank you, Madam Chairman and distinguished 
Members of the Committee, for this opportunity to discuss the 
Nation's preparedness in relation to all hazard response.
    By way of introduction, my name Fred Endrikat. I have been 
a Philadelphia firefighter for 32 years. I also served the 
Federal Emergency Management Agency Urban Search and Rescue 
National Response System in concurrent duty assignments as the 
National Task Force Leader's Representative, Incident Support 
Team Operations Chief and Task Force Leader for Pennsylvania 
Task Force 1.
    I have served in various capacities at the local, State and 
Federal levels in disaster response operations including a 40 
day field assignment as the FEMA US&R Incident Support Team 
Operations Chief at the September 11th attack and collapse of 
the World Trade Center in New York City and a 30 day field 
assignment with the FEMA US&R Incident Support Team as the 
Operations Chief for Hurricane Katrina in Mississippi and 
Hurricane Rita.
    I am speaking today as a first responder, but I also have 
the responsibility and the privilege to speak on behalf of the 
nearly 6,000 members of the Federal Emergency Management 
Agency's Urban Search and Rescue National Response System.
    FEMA Administrator Paulison and the vision for a new FEMA 
speak to a shared responsibility approach for emergency 
management. A cornerstone of this shared responsibility is 
partnerships between Federal, State and local government. The 
concept of an all hazards approach to this responsibility is 
critical to ensure that we are prepared to respond effectively 
to any significant disaster event anywhere in our Nation.
    Prior to the September 11th attacks, the FEMA US&R task 
forces were faced with a shift in focus due to our response to 
the bombing of the Murrah Federal Building in Oklahoma City. 
This incident made us aware that we needed to be ready for more 
than natural disasters as had been our focus up until that 
point in time.
    When the 9/11 attacks occurred, the US&R task forces had 
already begun preparing for response to a terrorist type 
attack. Six US&R task forces had been selected by FEMA to begin 
to achieve capabilities to respond to weapons of mass 
destruction incidents. After 9/11, all 28 FEMA US&R task forces 
were issued identical equipment and training for response to 
this type of event.
    While 9/11 may have shifted the national focus to 
terrorism, the FEMA US&R program maintained the all risk focus 
that had been previously developed. As evidenced by the FEMA 
US&R program's response to Hurricanes Katrina and Rita and as 
highlighted by Secretary Chertoff in his report to Congress 
last year, the FEMA US&R program was one of the Federal 
response entities along with the United States Coast Guard that 
was acknowledged for successful response operations.
    Immediately after the September 11th attacks, we as a 
Nation understandably focused our efforts on homeland security 
and terrorism and allocated significant funds to increase our 
capabilities in this one specific area. As a result, we, again 
as a Nation, may have unintentionally subordinated our efforts 
and our capability related to other risks that we continually 
face.
    With limited funding amounts, we end up competing for funds 
to prepare for individual specific types of events when it 
would be more prudent and cost effective to approach our 
funding for preparedness from the all hazard perspective. 
Simply stated, there are too many worthy causes that have vying 
for a very finite amount of funds.
    Large scale building collapse rescue operations in a water 
environment in the collapsed flooded underground subway tunnels 
under the World Trade Center require the same operational 
capabilities, highly trained personnel, incident management 
protocol, planning functions and significant logistical support 
requirements as collapsed building water rescue operations in 
flooded environments in urban, suburban and rural areas of 
North Carolina when they experienced that during Hurricane 
Floyd or in New Orleans during Hurricane Katrina.
    I believe that our focus should not be on the triggering 
mechanism that causes a disaster. The stronger our foundation 
in the concept of all hazard preparedness, the more likely we 
will successfully and safely resolve any incident that we 
respond to.
    All disasters start as local level events, and as the 
response element builds ins cope and complexity, each event 
presents very similar challenges in all phases of the emergency 
management cycle: preparedness, response, recovery and 
mitigation. The preparedness cycle and its relationship to the 
other phases is key.
    As we prepare to respond to any type of disaster, far 
reaching benefits will be achieved by consistently training 
together, sharing information and building relationships at all 
levels of government and all tiers of response from first 
responders to fourth tier, stand-alone, self-sufficient 
resources like the FEMA US&R task forces.
    Integrating common doctrine, a common concept of 
operations, similar equipment and techniques for individual 
response disciplines and interoperable communications through 
all of these tiers of response in the preparedness phase will 
allow for the most effective service delivery to our citizens 
during the response and subsequent phases.
    I would respectfully ask that the Committee consider the 
continued support of successful programs like the FEMA US&R 
National Response System. Corresponding adequate funding would 
ensure a robust all hazard emergency management system for 
Federal, State and local governments through all tiers of 
response.
    I would also ask the Committee to consider continued 
support for the Post-Katrina Reform Act and support for the 
preparedness function, particularly training and exercises.
    Thank you for the privilege of testifying.
    Ms. Norton. Thank you very much, Mr. Endrikat.
    Ms. Norton. Sheriff Sexton, National Sheriffs' Association.
    Mr. Sexton. Thank you.
    My name is Ted Sexton, Sheriff of Tuscaloosa County, 
Alabama and Immediate Past President of the National Sheriffs' 
Association. I am here today representing our 3,087 elected 
sheriffs as well as the membership of over 25,000 law 
enforcement professionals.
    The State of Alabama has pioneered all hazard response by 
public safety entities by forming a mutual aid task force 
divided into eight regions. My office is the home for Region 3 
Law Enforcement Response Team that is largely comprised of 
members from my office, the Tuscaloosa Police Department, 
Northport Police and the University of Alabama Police 
Department along with nine other agencies that contribute over 
100 law enforcement officials to participate.
    Region 3 has the ability to function for five days in a 
completely self-contained manner for any necessary response 
event. Our team assets range from interoperable communications 
vehicles, mobile command posts, law enforcement response 
personnel, K-9 tactical, detection and protection equipment. 
Our Region 3 Response Team has experienced five hurricane 
deployments and numerous requests for law enforcement 
functions.
    The National Sheriffs' Association has been a supporter of 
FEMA's all hazard response but does feel that deficiencies 
still remain that must be addressed. First is the need for a 
law enforcement representative in the administrative hierarchy 
of FEMA. Local law enforcement officials will always be the 
first to respond to any terrorist event or in times of other 
disaster and has a unique responsibility to ensure that public 
safety is not compromised in the immediate aftermath of such a 
crisis.
    A law enforcement representative would be able to work with 
local and State governments to ensure adequate response needs 
are met by responding law enforcement entities while meeting 
the requirements of being self-contained.
    In a post-9/11 era, no public safety entity has seen 
greater change than law enforcement and its responsibility to 
prevention and protection. This law enforcement representative 
would ensure that law enforcement capabilities remain balanced 
among response, prevention and protection.
    Local law enforcement is now involved in sharing of 
classified information and intelligence gathering in a shared 
capacity with Federal and State partners.
    Secondly, NSA also believes that regional first responder 
committees must be implemented within the Federal legislation 
and sheriffs, as chief elected officials, need to be among a 
wide variety of public safety responders involved.
    One example of an issue that needs addressing is the need 
for reconfigurement of FEMA law enforcement reimbursement 
schedules to include aviation assets or other specialized 
equipment.
    Third, there a mindset and pattern of waiting for a tragic 
catastrophe to occur, then assessing it, then responding to it. 
If Katrina and Rita taught us anything, it is the need to make 
prior contact with responding entities so that you have peace 
of mind as a law enforcement administrator to know who is 
coming, what resources are they bringing and when can they 
arrive. Sheriffs I have spoken to and responded to, hit by 
Katrina, did not have means to communicate by phone or radio.
    The National Sheriffs' Association prepared a white paper 
entitled Response in a Heartbeat: An Immediate Fix and a Long 
Term Solution to Response. This blue ribbon panel of sheriffs 
convened to examine lessons learned in the response to 
Hurricane Katrina.
    A gap that we feel FEMA can take care with a law 
enforcement representative in and committees is to form 
regionally based organized mobile flexible forces that are able 
to respond immediately to a disaster to support local 
governments, much like what the State of Alabama has already 
done. Mobilization would be a simple process. There would be no 
need for massive negotiation and endless streams of red tape. 
Responses need to be based on seconds and minutes, not on hours 
and days.
    Fourth and possibly the most important is that 
reimbursement funding needs to be streamlined so that assets 
that can be called upon multiple times and can be reimbursed 
without stressing unaffected local government revenues. If we 
could fund EMAC support as FEMA does immediate needs funding 
for Category A and B--and the work we do is Category B work, 
emergency protective measures--we could receive 50 percent of 
the estimated costs up front or within 30 days of that duty.
    That would give local governments and States with a lower 
tax base the ability to more easily absorb the up-front costs. 
The claims would still have to be appropriately documented and 
justified, however, the long term expense to the State and/or 
local government would be mitigated.
    This could also be aided by the development and 
distribution of preplanned guidelines, a package of checklists, 
templates, forms and sample agreements that would be compiled 
and distributed to first responders. This material would guide 
first responder efforts to develop and enhance emergency 
operations plans, incident accident plans, prepare memoranda of 
understanding and complete NIMS, FEMA, DHS and EMAC compliant 
pre and post-event plans, reports and claims.
    Simply put, we need to streamline the process and have 
everyone on the same sheet of music.
    It has been an honor to appear before this Committee on 
behalf of the National Sheriffs' Association, and I look 
forward to answering any questions you may have.
    Ms. Norton. Thank you very much, Mr. Sexton, and may I 
thank all four of you for very helpful testimony to this 
Subcommitee.
    Ms. Norton. Let me just try to get at some of the issues 
raised by your testimony, particularly in relation to prior 
testimony.
    Mr. Carr mentions, perhaps explicitly when he says, Chief 
Carr, when he says in his testimony that there was some concern 
that chemical and biological, radiological, nuclear, that kind 
of funding and the like was overwhelming funding for more 
traditional areas of need. In what way?
    Are you referring to the application process?
    Do you feel that you must apply for those funds in order to 
get the necessary funds?
    Are those funds coming out of the Department of Homeland 
Security and not FEMA grants?
    Would you, or for that matter the others, elaborate if you 
agree on that notion about terrorism funding overwhelming 
traditional areas?
    Mr. Carr. Well, most importantly, there needs to be a 
balance, and certainly the programs in place, the FIRE Act 
Grants and the SAFER Grants, provide some opportunity for 
balance if they are adequately funding. UIC funding provides, 
and especially in the National Capital Region, a good balance 
of perspective on regional preparedness as it relates to 
terrorism response but also all hazards response.
    So the concern is that we continue the all hazards approach 
to funding and not focus only on the terrorism specific 
response.
    Ms. Norton. Do any of the others of you have a response to 
this notion about terrorism funding?
    The reason that I was drawn to Chief Carr's notion is he 
actually spelled out the kinds of funding one would expect to 
be terrorism funding. Part of this artificial. But, after all, 
probably first responders weren't doing as much in 
radiological, nuclear, chemical and the rest when they filed 
for grants before.
    So I am trying to find out whether or not you really feel 
if you want some money, this is where you have got to go 
because this is where the money is. We know that is where 90 
percent is, and of course you are eligible for both.
    We have a pretty unique situation here, Chief Carr.
    Anything the rest of you have to say, I would be pleased to 
hear.
    Yes, Mr. Canterbury.
    Mr. Canterbury. Madam Chairman, I think in the UIC areas 
and in the all hazards response equipment, in the law 
enforcement arena, one of the most important pieces that is not 
there is the human intelligence and prevention mode in the 
grants, and I know there are other justice grants
    But in the Homeland Security area for law enforcement, 
first of all, we were very lacking of any equipment for 
response. I believe the proper term for law enforcement, prior 
to 9/11, is canary. The firemen will understand what I am 
talking about. If they wanted to know something was biohazard 
at a truck spill, you send the policemen up. It is just kind of 
a joke in the first responder community. But we had no 
equipment.
    Now that we have got an abundance of that equipment but the 
one thing that we don't have. You have the JTTS, but that is 
very lacking, and I think in the local arena, human 
intelligence gathering capabilities and prevention techniques 
have been very limited.
    Ms. Norton. Is that funded out of Homeland Security?
    Mr. Canterbury. Yes.
    Ms. Norton. So you can get that out of Homeland Security.
    Mr. Canterbury. Predominantly, it was, but now that the 
money has been moved back to FEMA, we are not sure how that is 
going to work.
    Ms. Norton. Can't local law enforcement also apply for 
Homeland Security grants in its various categories?
    Yes, Sheriff Sexton?
    Mr. Sexton. Ma'am, I think one of the problems, I will just 
come right to the core. I think what we have done is make 
everybody fight so much over the same piece of pie, it is 
unbelievable. We are all at the dinner table together but when 
it comes to dessert.
    Ms. Norton. But they have got 90 percent, Sheriff Sexton.
    Mr. Sexton. Yes, but the terrorism funds right now, you 
have police and fire and sheriffs, we are fighting and elbowing 
at the pie.
    The problem is for law enforcement is we have lost 64 
percent since 9/11 of our justice funding for under Burn, under 
the things that Mr. Oberstar was talking about for methamphet, 
the programs. You know we can't throw the baby out with the 
bathwater.
    We still have got domestic violence. We have still got 
campus problems that we are dealing with now, mental health 
issues that are coming into play. Everything is being tied into 
terrorism. I would assume that the Virginia Tech incident will 
soon be labeled a domestic terrorist incident in order to open 
everybody up for additional funding.
    That is the problem with this is that we are all fighting, 
and I would love to push all these guys to the end of the table 
and fight for the same dollar, and they would like to push me 
back the other way, but that is what we have done. We have 
thrown police and fire together in the funding mechanism, and 
some of the things that we had in place prior to would have 
made it much more simple and make sure that we are providing in 
the areas we should be.
    Ms. Norton. This is quite a dilemma, isn't it? Ninety 
percent of the money is in terrorism. What we are talking about 
here is terrorism, and yet the police and fire have to compete 
because essentially they are expected to go, I guess, for FEMA 
grants.
    Mr. Sexton. If I could say one last thing, ma'am, I think 
you are seeing police officers are now trying to do things that 
we traditionally have not done in the area of hazmat and other 
areas just be able to compete for these funds under the 
auspices that it is a crime.
    Ms. Norton. Because that is where the money is, yes.
    Let me give you an example. I learn from examples. This is 
an example I know from Committee work in Homeland Security but 
here it comes up in Chief Carr's testimony.
    The 65 percent number of fire departments do not have 
enough portable radios to equip all their emergency responders 
on a shift. Okay, there you have got it, all hazards. I don't 
think anybody in the world would say that doesn't apply across 
the board.
    I, by the way, am one of those Members of Congress that did 
not stand up and applaud Mr. Giuliani, and that is not because 
he is not in my party. It is because I kept reading the New 
York Times that said that the basic problem, the reason all 
those firefighters lost their lives, was that there was no 
interoperability, so that they knew not to run into that 
building. By the way, you had more firefighters than anybody 
else lost.
    Here, you are looking at the granddaughter of Lieutenant 
Richard Holmes who entered the D.C. Fire Department in 1902. So 
I feel this one real up close and personal.
    But, here, you have got the best example. Nobody would try 
to disaggregate portable equipment. You have got 9/11. Hey, 
that just says it all. Then you have got firefighters going 
into a building. You have got the canary and the policemen.
    Where do you apply for those funds and why do 65 percent 
not have it?
    Mr. Carr. Well, one thing that is imminent is the Senate 
passing the 9/11 Commission Implementation Bill, and hopefully 
the House will pass the same bill that provides $3.3 billion in 
grant funds to deal with these specific types of issues, 
communications interoperability and things of that nature.
    Ms. Norton. You can't get that now through either of the 
fundings.
    Mr. Carr. Yes, absolutely you can. FIRE Act grants are. 
Communications equipment is appropriate for FIRE Act grants as 
long as the FIRE Act program is properly funded. So, yes, you 
can get it through that program.
    Ms. Norton. What is the interoperability funding problem 
then?
    This keeps coming up in the Homeland Security Committee 
too. What is the problem?
    It seems to me that is the first thing everybody would want 
want, to be able to talk back and forth. Is it a technological 
problem that we don't know what system to get?
    Why aren't fire and, for that matter, all first responders 
talking to each other?
    Mr. Sexton. Well, in our area, they are. But it is my 
understanding for the upcoming Homeland Security funds starting 
this year, the focus of that is on interoperability. They have 
dealt with equipment. They have dealt with training issues, 
building of teams. It is my understanding that funds this year, 
the priority is interoperability.
    In our State, we have 67 ACU 1,000s out plus in eight 
mobile regions. So they have done that.
    But the question that you are mentioning is that there is 
just so much technology and so much that has come up in regard 
to. In some cases, there are folks out there that want to argue 
about Federal regulations and APCO P25 standards and radio 
systems that are there that would allow for a cheaper mechanism 
So everybody is trying to figure out how to do this and stay 
within the mechanisms to be funded.
    Ms. Norton. You shouldn't have to figure that. First of 
all, this speaks to one of the perennial criticisms of the 
Department. If they were there, they were there for leadership.
    One of the things the Department, it seems to me, should 
have done would be to say there are priorities on things that 
everybody ought to have right now. Instead, of course, all this 
money went out, and people bought everything they could buy 
with the money.
    The notion that interoperability was not at or near the top 
of the list is absolutely befuddling to me. I understand the 
other problems, which system and the rest but in terms of 
priorities.
    Here you are sitting as an emergency responder, so you know 
about the firefighters problem. You know now, though, about 9/
11. It does seem to me that if you say, all right, you all 
apply for grants and, of course, you know best of all what you 
need and no recommendations from the Department about what one 
minimally needs to have in the post-9/11 era to convert, and 
that is what each of you have done.
    You have converted from cops and firefighters to emergency 
responders and security officials. That is exactly what you are 
now. Nobody would have called you the fancy things before.
    So somebody has to say, look, you don't have to do this, 
but given what we saw in 9/11, given what we know is on the 
ground already, for example, in the firefighters case involving 
both firefighters and police, here are our recommendations. Now 
we have got to go out and figure out how to do it.
    This is what if I was trying to think this through based on 
what we have done wrong, so that I have some notion of what to 
do now.
    I am going to have a lot of other questions. I do want to 
ask you this. What kind of grants, given what is now available 
in the Administration's proposal?
    I am sure you haven't looked at it in great detail, but you 
have some sense of the kind of grants that are available, and 
we have all these concerns, some of which you have in your own 
ways articulated.
    What type of grants would not be eligible if we proceed in 
the Post-Katrina Act funding under the President's proposal, do 
you think, of the kind you would be most eligible for?
    Mr. Sexton. I think there is some confusion as to where 
people do come in and fall in regard to this in the way that 
the grant funding is coming down to the States and then 
applying back to the States again, nine times out of ten tying 
into some sort of Homeland Security.
    The thing that I think law enforcement is concerned with 
is, again, that 64 percent loss of funding that we have had 
since 9/11. Many of the issues, as I believe it was Chief Carr 
mentioned, are similar for law enforcement. We are dealing.
    Ms. Norton. Give me examples of the kind of funding you 
lost?
    Mr. Sexton. Your Burn Jag, your narcotics units.
    Ms. Norton. Your what?
    Mr. Sexton. Narcotics units, that has been one of the 
greatest areas of gathering intelligence, for example, on who 
is dealing with drugs, who many funding, where is the money 
going that may be going out of your State up into another 
banking jurisdiction and then over into the Middle East.
    Ms. Norton. They will say that that is not terrorism 
funding because I have just been south of the border to various 
countries. While they spoke to us about narcotics, our concern_
I went as a Member of the Homeland Security Committee_was that 
narcotics funds are certainly capable of funding terrorism, and 
whoever comes across the border with some narcotics can come 
across the border with anything else including a terrorist 
device.
    Mr. Sexton. Yes, ma'am, 70 percent of the methamphet in my 
county is coming out of Mexico. So, again, there is the type of 
activity that we have lost funding for that ties back directly 
to terrorism and homeland security. Those are the types of 
things that we are concerned about.
    Ms. Norton. It is interesting because again this came 
across in the Congressional delegate of Homeland Security.
    I believe it is going to be difficult. The notion of you 
losing funding, that kills me. I am from a big city, and that 
kills me, and I see what meth has done throughout the Country. 
But this is the kind of thing where the central need is 
connected to narcotics that we have not yet gotten the 
Department to understand is interchangeable with a terrorist 
event, given how wide open the Mexican border, in particular, 
is.
    This notion of competing for funds, finally, concerns me. 
You talk about you actually feel you are sometimes competing 
among departments.
    In the National Capital Area, we all sit at the same table. 
That is rare. It was because I put an amendment in the House 
and there was an amendment put in the Senate that said we ought 
to have a regional body and because it is where the Federal 
presence is, we were able to get it funded for a person to be 
there. But, actually, what has mattered is not so much that 
person. What matters is that everybody now sits at the same 
table.
    That could happen elsewhere without funding because to fund 
some body, I don't think has made a lot of difference. What has 
made a lot of difference is Montgomery County, Prince Georges 
County, the District of Columbia and Fairfax sit at the same 
table, and the money goes to them as a region. Then they sit 
together at the same table and figure out where it goes.
    Is anything like that happening anywhere else in the 
Country?
    Mr. Endrikat. Madam Chairman, that happens in Pennsylvania 
through counterterrorism regions. The State is divided into 
nine counterterrorism regions, and the same thing occurs. We 
sit at the table with our neighbors. In the Philadelphia USACE 
Region, it is five counties including Philadelphia.
    But I think, as Sheriff Sexton mentioned, we do compete for 
funds, and maybe the solution for that is more funding. As we 
establish priorities in each of those regional counterterrorism 
areas and each of us try to build our own capabilities, without 
adequate funding, then we have to compete.
    Ms. Norton. I think Sheriff Sexton and the law enforcement 
community have literally been robbed. I don't think that 
Homeland Security is going to do much for meth, and yet meth is 
spreading like wildfire, and yet those funds were available.
    I am bothered tremendously that you move from one 
department and another, and the major effect you see is the 
loss of funding.
    Mr. Sexton. Yes, ma'am, you are absolutely right. Right 
now, we compete for the same funds, and I think at times it 
does cause friction. Even in the State of Alabama, we divide 
our funds up through regions and through counties and so on and 
so forth. The money is there, but we are seeing it become much 
more difficult to find.
    We are still dealing, and I go back to Virginia Tech, one 
of the things that is coming out of Virginia Tech is the mental 
health element. So we are still dealing with some urgently 
desperate needs that have been funded in the past that we are 
losing, and they all come back.
    I have traveled to England and Pakistan and other places to 
look at terrorism, and one of the things that we are seeing in 
England is the attacks that come from within. I think as we 
look at what comes from within, we need to continue to look at 
some of those issues that give us prime indicators: 
intelligence, mental health and so on and so forth.
    That is my concern for continued funding for law 
enforcement and the fire service, certainly, and EMS needs to 
have continued funding. But I would like to see more funds 
channeled, so that we are not necessarily competing to try to 
get dollars out of the fire department's pocket.
    Ms. Norton. If any of the rest of you have anything to say, 
I would like to hear it before I adjourn the hearing.
    I do want to say that your testimony, Mr. Sexton, very 
dramatically, perhaps more so than FEMA, illustrates what 
simply moving your home can do to funding.
    I have got to be frank. As I hear it, it is clear to me if 
I do a deeper analysis about where drugs come from, meth is 
even harder, although now Mexico is a major site for meth as it 
was not always. Unless you do a deeper analysis, it is going to 
be difficult to get Homeland Security to look at what they will 
see as basically a domestic problem.
    The answer, it seems to me, is some kind of make-whole 
remedy. The grants, the FIRE grants, look what they are called. 
FIRE grants. The very definition tells you that law enforcement 
was somewhere else.
    Mr. Sexton. Ma'am, can I just give you an idea? When you 
dial 911, you are calling folks at this table. FEMA does not 
answer that 911 call. But with the capabilities that we are 
getting and we are hearing about trying to put together Federal 
strike teams, why not contract with the resources that are 
already there in your local governments?
    For example, they are talking about hurricane season. Why 
not contract with folks for those resources during that four to 
five month period?
    Those resources are available now if we go look throughout 
the southeastern district of the United States. So there are 
some ideas out there that local law enforcement and local fire 
service have tried to bring forward in regards to ideas to be 
able to better respond to national problems.
    Ms. Norton. This is an idea that makes such common sense, 
one doesn't understand why it hasn't already taken hold.
    Gentlemen, I want to thank each of you for this testimony, 
very helpful to us, tells us things we don't know, need to 
know, gives us ideas of what we need to do.
    I very much appreciate your indulgence. That is all it can 
be called in waiting for us through to the third panel.
    I want to say, of course, the record will be open for five 
legislative days, and I have a number of documents to be added 
to the record which I will transmit at this time.
    Again, you have my sincere thanks and the thanks of the 
entire Subcommittee for coming forward with indispensable 
testimony to our mission today.
    The hearing is adjourned.
    [Whereupon, at 2:15 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T5917.009
    
    [GRAPHIC] [TIFF OMITTED] T5917.070
    
    [GRAPHIC] [TIFF OMITTED] T5917.010
    
    [GRAPHIC] [TIFF OMITTED] T5917.011
    
    [GRAPHIC] [TIFF OMITTED] T5917.012
    
    [GRAPHIC] [TIFF OMITTED] T5917.013
    
    [GRAPHIC] [TIFF OMITTED] T5917.014
    
    [GRAPHIC] [TIFF OMITTED] T5917.015
    
    [GRAPHIC] [TIFF OMITTED] T5917.016
    
    [GRAPHIC] [TIFF OMITTED] T5917.017
    
    [GRAPHIC] [TIFF OMITTED] T5917.018
    
    [GRAPHIC] [TIFF OMITTED] T5917.019
    
    [GRAPHIC] [TIFF OMITTED] T5917.020
    
    [GRAPHIC] [TIFF OMITTED] T5917.021
    
    [GRAPHIC] [TIFF OMITTED] T5917.022
    
    [GRAPHIC] [TIFF OMITTED] T5917.023
    
    [GRAPHIC] [TIFF OMITTED] T5917.024
    
    [GRAPHIC] [TIFF OMITTED] T5917.025
    
    [GRAPHIC] [TIFF OMITTED] T5917.026
    
    [GRAPHIC] [TIFF OMITTED] T5917.027
    
    [GRAPHIC] [TIFF OMITTED] T5917.028
    
    [GRAPHIC] [TIFF OMITTED] T5917.029
    
    [GRAPHIC] [TIFF OMITTED] T5917.030
    
    [GRAPHIC] [TIFF OMITTED] T5917.031
    
    [GRAPHIC] [TIFF OMITTED] T5917.032
    
    [GRAPHIC] [TIFF OMITTED] T5917.033
    
    [GRAPHIC] [TIFF OMITTED] T5917.034
    
    [GRAPHIC] [TIFF OMITTED] T5917.035
    
    [GRAPHIC] [TIFF OMITTED] T5917.036
    
    [GRAPHIC] [TIFF OMITTED] T5917.037
    
    [GRAPHIC] [TIFF OMITTED] T5917.038
    
    [GRAPHIC] [TIFF OMITTED] T5917.039
    
    [GRAPHIC] [TIFF OMITTED] T5917.040
    
    [GRAPHIC] [TIFF OMITTED] T5917.041
    
    [GRAPHIC] [TIFF OMITTED] T5917.042
    
    [GRAPHIC] [TIFF OMITTED] T5917.043
    
    [GRAPHIC] [TIFF OMITTED] T5917.044
    
    [GRAPHIC] [TIFF OMITTED] T5917.045
    
    [GRAPHIC] [TIFF OMITTED] T5917.046
    
    [GRAPHIC] [TIFF OMITTED] T5917.047
    
    [GRAPHIC] [TIFF OMITTED] T5917.048
    
    [GRAPHIC] [TIFF OMITTED] T5917.049
    
    [GRAPHIC] [TIFF OMITTED] T5917.050
    
    [GRAPHIC] [TIFF OMITTED] T5917.051
    
    [GRAPHIC] [TIFF OMITTED] T5917.052
    
    [GRAPHIC] [TIFF OMITTED] T5917.053
    
    [GRAPHIC] [TIFF OMITTED] T5917.054
    
    [GRAPHIC] [TIFF OMITTED] T5917.055
    
    [GRAPHIC] [TIFF OMITTED] T5917.056
    
    [GRAPHIC] [TIFF OMITTED] T5917.057
    
    [GRAPHIC] [TIFF OMITTED] T5917.058
    
    [GRAPHIC] [TIFF OMITTED] T5917.059
    
    [GRAPHIC] [TIFF OMITTED] T5917.060
    
    [GRAPHIC] [TIFF OMITTED] T5917.061
    
    [GRAPHIC] [TIFF OMITTED] T5917.062
    
    [GRAPHIC] [TIFF OMITTED] T5917.063
    
    [GRAPHIC] [TIFF OMITTED] T5917.064
    
    [GRAPHIC] [TIFF OMITTED] T5917.065
    
    [GRAPHIC] [TIFF OMITTED] T5917.066
    
    [GRAPHIC] [TIFF OMITTED] T5917.067
    
    [GRAPHIC] [TIFF OMITTED] T5917.068
    
    [GRAPHIC] [TIFF OMITTED] T5917.069
    
                                    

</pre></body></html>
